 SIGAR                                   Special Inspector General for
                                          Afghanistan Reconstruction




                                                     SIGAR Financial Audit 13-10




         USAID’s Alternative Livelihoods Program–Eastern Region:
         Audit of Costs Incurred by Development Alternatives, Inc.




                                                               JULY
                                                                 2013

SIGAR Financial Audit 13-10
July 18, 2013


Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Ms. Sarah W. Wines
Acting Mission Director for Afghanistan
U.S. Agency for International Development


This letter transmits the results of our audit of costs incurred by Development Alternatives, Inc. (DAI) under
USAID contract, Alternative Livelihoods Program–Eastern Region. 1 The audit covered the period February 15,
2005, through June 30, 2009, 2 and was performed by Mayer Hoffman McCann P.C. It covered $115,521,246
in expenditures.
The objectives of the Alternative Livelihoods Program were to (1) help accelerate licit economic growth and
business activity, and (2) help provide an immediate alternative source of income to poor households whose
livelihoods depend, directly or indirectly, on the opium economy.
The specific objectives of the financial audit were to
    •    render an opinion on the fair presentation of DAI’s Fund Accountability Statement; 3
    •    determine and report on whether DAI has taken corrective action on recommendations from prior
         audits or assessments;
    •    identify and report on significant deficiencies, including any material weaknesses, in DAI’s internal
         financial controls; and
    •    identify and report on instances of material noncompliance with terms of the award and applicable
         laws and regulations.
In contracting with an independent audit firm, SIGAR is required by auditing standards to provide oversight of
the audit work performed. Accordingly, SIGAR reviewed Mayer Hoffman McCann’s audit results and supporting
audit documentation and found them to be in accordance with generally accepted government auditing
standards.
Mayer Hoffman McCann issued a qualified opinion on the Fund Accountability Statement based upon the
identification of questioned costs totaling $25,149,243. These costs were questioned because (1) Mayer
Hoffman McCann found transactions totaling $23,701,824 questionable after a review of the underlying
support, and (2) the audit’s scope was limited because DAI did not maintain records supporting the
$1,447,419 in costs incurred by its primary subcontractor, which filed for bankruptcy in February 2009. Mayer
Hoffman McCann identified eight recommendations from prior audits that could have a material effect on the


1 The program was later renamed the Alternative Development Program – Eastern Region, and references to both occur
throughout the contract period and are used interchangeably in the financial audit report.
2 USAID contract no. 306-M-00-05-00515-00 to promote licit economic opportunities and regional economic growth in

eastern Afghanistan.
3 The Fund Accountability Statement is a special purpose financial statement that includes all revenues received, costs

incurred, and any remaining balance for a given award during a given period.
Fund Accountability Statement and found that adequate corrective action had been taken on all eight
recommendations. Mayer Hoffman McCann reported four internal control findings and one instance of
noncompliance. These findings prompted the auditors to question a total of $25,149,243 in unsupported
costs. 4 The audit did not find any ineligible costs. 5 See table 1 below.
Table 1 - Summary of Questioned Costs
 Category                                              Questioned Costs Total              Ineligible          Unsupported

 DAI expatriate labor

 DAI cooperating country national labor

 Transportation and allowances

 BearingPoint labor

 BearingPoint other direct costs

 Other direct costs / general and administrative

 Subcontracts

 Implementation funds

 Totals                                                            $25,149,243                                  $25,149,243

Given the results of the audit, SIGAR recommends that the Mission Director of USAID/Afghanistan:
     1. Determine the allowability of and recover, as appropriate, $25,149,243 in questioned costs identified
        in the report.

     2. Advise DAI to address the four internal control findings identified in the report.
     3. Advise DAI to address the compliance finding identified in the report.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction


(F-003)


4 Unsupported costs are costs for which adequate or sufficient documentation necessary for the auditor to determine the

propriety of costs was not made available.
5 Ineligible costs are costs that the auditor has determined to be unallowable. These costs are recommended for exclusion

from the Fund Accountability Statement and review by USAID to make a final determination regarding allowability.




                                                            2
    DEVELOPMENT ALTERNATIVES, INC.

     Financial Audit of Costs Incurred under
     Task Order No. 306-M-00-05-00515-00

For the Period February 15, 2005 to June 30, 2009
                         DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                      For the Period February 15, 2005 to June 30, 2009


                                      Table of Contents


                                                                          Page
Summary:
 Background                                                                1
 Objectives, Scope and Methodology                                         1
 Summary of Results                                                        4
 Summary of DAI’s Responses to Findings                                    7
 Review of Prior Findings and Recommendations                              8

Independent Auditor’s Report on Fund Accountability Statement              10

Fund Accountability Statement                                              12

Notes to Fund Accountability Statement                                     13

Independent Auditor’s Report on Internal Control                           23

Independent Auditor’s Report on Compliance                                 25

Findings and Responses                                                     26

Appendix A: Review of Prior Findings and Recommendations                   42

Appendix B: Detailed Results for Finding 2013-2                            46

Appendix C: DAI Response to Findings                                       78

Appendix D: Auditor’s Rebuttal to DAI Response to Findings                 95
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                       For the Period February 15, 2005 to June 30, 2009


SUMMARY

Background

The Special Inspector General for Afghanistan Reconstruction (SIGAR) contracted with Mayer
Hoffman McCann P.C. (MHM) to perform a Financial Audit of Costs Incurred under Task Order
No. 306-M-00-05-00515-00 (Task Order), between Development Alternatives, Inc. (DAI) and the
United States Agency for International Development (USAID) for the period February 15, 2005
to June 30, 2009. The Task Order was issued under the United States General Services
Administration (GSA) Mission Oriented Business Integrated Services (MOBIS) Contract No. GS-
10F-0359M. The MOBIS contract allows for the placement of firm fixed price or time and
materials task orders to be reimbursed by USAID.

Effective February 15, 2005, USAID entered into a Task Order with DAI in the total estimated
amount of $108,386,801. At the time of award, USAID obligated $1,800,000. The original
period of performance was through February 14, 2009. This Task Order was modified 15 times,
increasing the total amount to $118,386,802 and extending the period of performance through
June 30, 2009.

The purpose of the Task Order was to implement the Alternative Livelihood Program for the
Eastern Region (ALP/E) in the eastern provinces of Kunar, Laghman, and Nangarhar. In 2004,
the eastern provinces accounted for almost one-third of all of Afghanistan’s poppy production,
and in Nangarhar, the number of households involved in the opium economy was double that of
the national average (more than 70 percent of families). The Task Order was modified on
October 3, 2007 to rename the ALP/E to the Alternative Development Program East (ADP/E).

ADP/E’s goal was to accelerate broad-based, sustainable regional economic development in
ways that provide new opportunities for Afghans in the licit economy in the eastern region of
Afghanistan. The program had two objectives: (1) to help accelerate licit economic growth and
business activity, and (2) to help provide an immediate alternative source of income to poor
households whose livelihoods depend, directly or indirectly, on the opium economy.

To carry out the program, DAI conducted training in livestock husbandry, business skills,
agricultural practices, introduced a mobile phone system, rehabilitated roads and irrigation
canals, and provided support to farmers, government officials and business owners.


Objectives, Scope and Methodology

Objectives

The objectives of the audit include the following:




                                                 1
                           DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                       For the Period February 15, 2005 to June 30, 2009


SUMMARY

   •    Internal Controls – Evaluate and obtain a sufficient understanding of DAI’s internal
        controls related to the award; assess control risk; and identify and report on significant
        deficiencies including material internal control weaknesses.

   •    Compliance – Perform tests to determine whether DAI complied, in all material respects,
        with the award requirements and applicable laws and regulations; and identify and report
        on instances of material noncompliance with terms of the award and applicable laws and
        regulations, including potential fraud or abuse that may have occurred.

   •    Corrective Action on Prior Audit Recommendations – Determine and report on whether
        DAI has taken adequate corrective action on prior external audit report
        recommendations or other external assessment recommendations.

   •    The Fund Accountability Statement (FAS) – Express an opinion on whether the FAS
        presents fairly, in all material respects, revenues received, costs incurred, items directly
        procured by the U.S. Government and fund balance for the period audited in conformity
        with the terms of the award and generally accepted accounting principles or other
        comprehensive basis of accounting.


Scope

The scope of this audit included all costs incurred during the period February 15, 2005 to June
30, 2009 under the Task Order. Our testing of overhead was limited to determining that the
overhead was calculated using the correct provisional negotiated indirect cost rate for the given
fiscal year, as approved by USAID.


Methodology

In order to accomplish the objectives of this audit, we designed our audit procedures to include
the following:

Entrance Conference

An entrance conference was held via conference call on December 11, 2012 with
representatives of DAI, SIGAR and USAID in attendance.

Planning

During our planning phase, we performed the following:




                                                 2
                         DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                      For the Period February 15, 2005 to June 30, 2009


SUMMARY

   •   Obtained an understanding of DAI;
   •   Reviewed awards and modifications to DAI;
   •   Reviewed regulations specific to the funding agency of the award;
   •   Performed a financial reconciliation; and
   •   Selected samples based on our approved sampling techniques.

Internal Control Related to the FAS

We reviewed DAI’s internal controls related to the FAS. This review was accomplished through
interviews with management and key personnel, review of policies and procedures, identifying
key controls within significant transaction cycles, and testing those key controls.

Compliance with the Task Order Requirements and Applicable Laws and Regulations

We reviewed the Task Order, modifications and any subawards and documented all compliance
requirements that could have a direct and material effect on the FAS. We assessed inherent
and control risk as to whether material noncompliance could occur. Based upon our risk
assessment, we designed procedures to test a sample of transactions to ensure compliance.

Corrective Action on Prior Audit Recommendations

We reviewed all prior audit reports and recommendations provided and evaluated the status of
the prior audit recommendations by reviewing evidence of any corrective actions taken.

Fund Accountability Statement

In reviewing the FAS, we performed the following:

   •   Reconciled the costs on the FAS to the Agreement and general ledger;
   •   Traced receipt of funds to the accounting records; and
   •   Sampled and tested the costs incurred to ensure the costs were allowable, allocable to
       the Task Order, and reasonable.

Pre-Exit Conference

A pre-exit conference was held on March 1, 2013 with DAI to discuss the status of the audit. A
final pending list consisting of items requiring follow-up and/or additional documentation was
provided to DAI along with a due date for submission.




                                              3
                         DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                      For the Period February 15, 2005 to June 30, 2009


SUMMARY

Exit Conference

An exit conference was held on April 4, 2013. Attendees included DAI, SIGAR and USAID.
During the exit conference, we discussed the preliminary results of the audit and established a
timeline for providing any final documentation for consideration and reporting.


Summary of Results

Our audit of the costs incurred by DAI under Task Order with USAID identified the following
matters:


Auditor’s Opinion on FAS

We issued a qualified opinion on the fairness of the presentation of the FAS. This opinion was
based upon the identification of certain questioned costs totaling $25,149,243, which represents
a material misstatement of the FAS. The ultimate determination of whether the identified
questioned costs are to be accepted or disallowed rests with the USAID.


Scope Limitation

We were unable to determine whether the costs claimed from DAI’s prime subcontractor,
BearingPoint, were reasonable, allowable and allocable to the Task Order as BearingPoint filed
bankruptcy and all documentation related to the Task Order could not be provided. According
to management and our review of the Fund Accountability Statement, total costs incurred from
February 15, 2005 through June 30, 2009 by BearingPoint were $1,447,419 as follows:

      Labor                                            $1,121,227
      Other direct costs/G&A                              326,192

        Total costs incurred by BearingPoint           $1,447,419


Questioned Costs

There are two categories of questioned costs, ineligible and unsupported. Ineligible costs are
those costs that are deemed to not be allowable in accordance with the terms of the Task Order
and applicable laws and regulations. Unsupported costs are those costs for which inadequate
supporting documentation was provided for our review. A summary of questioned costs is as
follows.



                                               4
                           DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                       For the Period February 15, 2005 to June 30, 2009


SUMMARY

Ineligible Costs

Our audit identified no costs that were deemed to be ineligible.

Unsupported Costs

   •   Identical Fingerprints and/or signature were identified on the Cash-for-Work (CFW)
       Programs and Temporary Consultants Costs. Total costs and related overhead for the
       CFW Program and Temporary Consultants were $11,798,501 and $4,070,489,
       respectively. See Finding 2013-1 in the Findings and Responses section of this report.

   •   Expenses incurred for DAI Expat GSA Labor, DAI CCN GSA Labor, Transportation and
       Allowances, Other Direct Costs/G&A, Subcontracts, and Implementation Funds, were
       either unsupported, lacked management approval, were inadequately translated and/or
       did not follow proper procurement procedures, which resulted in questioned costs of
       $7,832,834. See Finding 2013-2 in the Findings and Responses section of this report.

   •   DAI did not obtain support for the expenses incurred by BearingPoint, Inc. nor performed
       adequate subcontractor monitoring to ensure expenses claimed were adequately
       supported. In February 2009, BearingPoint, Inc. filed for Chapter 11 bankruptcy. All
       BearingPoint, Inc. records related to DAI’s ADP/E program were no longer available.
       Total costs claimed by DAI under the agreement with BearingPoint, Inc. included labor
       and other direct costs totaled $1,121,227 and $326,192, respectively. See Finding
       2013-4 in the Findings and Responses section of this report.

Total questioned costs as a result of our audit are as follows. These questioned costs resulted
in a material misstatement of the FAS.

       Ineligible costs                         $         -
       Unsupported costs                         25,149,243

         Total questioned costs                $25,149,243


Internal Control Findings

Internal control findings are classified into three categories, deficiency, significant deficiency,
and material weakness. A deficiency in internal control exists when the design or operation of a
control does not allow management or employees, in the normal course of performing their
assigned functions, to prevent, or detect and correct, misstatements on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged



                                                 5
                           DEVELOPMENT ALTERNATIVES, INC.

                              Financial Audit of Costs Incurred under
                              Task Order No. 306-M-00-05-00515-00

                         For the Period February 15, 2005 to June 30, 2009


SUMMARY

with governance. A material weakness is a deficiency, or a combination of deficiencies, in
internal control, such that there is a reasonable possibility that a material misstatement of the
FAS will not be prevented, or detected and corrected on a timely basis. A summary of the
internal control findings noted as a result of the audit are as follows:

Material Weakness

The following material weaknesses were reported:

      Finding                                                                     Auditee’s
      Number              Internal Control Finding – Material Weakness           Concurrence
      2013-1       Identical Fingerprints and/or signatures were identified on    Disagree
                   CFW Programs and Temporary Consultants Costs. Total
                   costs and related overhead for the CFW Program and
                   Temporary Consultants were $11,798,501 and $4,070,489,
                   respectively.

       2013-2      DAI did not consistently follow procurement procedures          Disagree
                   related to DAI Expat GSA labor, DAI CCN GSA labor,
                   transportation and allowances, other direct costs/G&A,
                   Subcontracts, and Implementation Funds totaling
                   $7,832,834.

       2013-4      DAI did not properly monitor cost incurred by its               Disagree
                   subcontractor and was unable to provide supporting
                   documentation for expenses by its prime subcontractor,
                   BearingPoint. Total unsupported subcontractor’s cost was
                   $1,447,419.


Significant Deficiency

The following significant deficiencies were reported:

      Finding                                                                     Auditee’s
      Number             Internal Control Finding – Significant Deficiency       Concurrence
      2013-3       DAI time reporting policy did not appear adequate.             Disagree
                   According to DAI’s time sheet procedures, employees were
                   required to submit, and a supervisor’s approval must be
                   performed, 3 days prior to the end of the working month.
                   This would cause the employees and supervisors to
                   estimate their time for these final 3 days. No follow-up


                                                6
                         DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                      For the Period February 15, 2005 to June 30, 2009


SUMMARY

       Finding                                                                    Auditee’s
       Number           Internal Control Finding – Significant Deficiency        Concurrence
                  adjustments were made to convert the estimated hours to
                  actual.


Deficiencies

No deficiencies were reported.

The complete management response from DAI to each of the internal control findings can be
found in Appendix C to this report.


Compliance Findings

As part of obtaining reasonable assurance about whether the FAS is free from material
misstatement, we performed tests of its compliance with certain provisions of the Task Order
and other laws and regulations, noncompliance with which could have a direct and material
effect on the determination of the FAS. The results of our tests disclosed the following instance
of noncompliance.

       Finding                                                                    Auditee’s
       Number                         Compliance Finding                         Concurrence
       2013-5     The original records for 2005 through 2006 were destroyed       Disagree
                  after copies were submitted to the Home Office.


The complete management response from DAI to the compliance finding can be found in
Appendix C to this report.


Summary of DAI’s Responses to Findings

The following represents a summary of the responses provided by DAI to the findings identified
in this report. The complete responses received can be found in Appendix C to this report.

   •   Finding 2013-1: DAI disagrees with the finding and recommendation. It believes that
       the work intended under the CFW project was achieved and that there are legitimate
       reasons why some fingerprints would be identical. DAI indicates that all expenses
       requested for reimbursement were thoroughly reviewed by DAI staff prior to submission
       to USAID.


                                               7
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                       For the Period February 15, 2005 to June 30, 2009


SUMMARY

   •   Finding 2013-2: DAI disagrees with the finding and recommendation. It indicated that
       all expenses requested for reimbursement were thoroughly reviewed by DAI staff prior to
       submission to USAID. All relevant missing supporting documentation is stored in
       Afghanistan and DAI is working to retrieve this documentation. DAI does agree that the
       information from the old accounting system used during 2005 was unable to be retrieved
       before the conclusion of audit fieldwork.

   •   Finding 2013-3: DAI agrees that the financial policy does require the timesheets to be
       submitted three working days prior to the last working day of the month. DAI asserts
       that adjustments needed would be changed prior to the release of payment. It maintains
       that this process was appropriate and had no effect on the billed costs. Its Internal Audit
       Department recognizes that this finance approach created an onerous review process
       and has worked with projects over the last few years to ensure that timesheets are
       submitted only after actual hours worked are recorded.

   •   Finding 2013-4: DAI disagrees with the finding and recommendation since it was
       precluded an opportunity to review BearingPoint’s detailed documentation. DAI asserts
       that it is inappropriate to hold DAI responsible for BearingPoint’s supporting
       documentation. Further, DAI states that BearingPoint’s invoices were submitted in a
       manner consistent with the AIDAR.

   •   Finding 2013-5: DAI disagrees with the finding and recommendation. It asserts that
       there is no requirement within the Federal Acquisition Regulation to maintain original
       documents. DAI states that it maintains all required records as required by FAR 4.703,
       Policy on Contractor Record Retention.


Review of Prior Findings and Recommendations

We reviewed the corrective actions taken to address findings and recommendations from
previous engagements that could have a material effect on the FAS. DAI provided two reports
from previous engagements with recommendations for our review. These reports were included
in the scope of this audit and they included 8 findings with a potential material effect on the FAS.
Based on our review, adequate corrective action was taken on all 8 recommendations. See
Appendix A for details related to each of the prior audit recommendations reviewed.


Internal Audit

DAI provided an Internal Audit Report prepared by DAI on October 8, 2008. This Internal Audit
Report identified 6 findings. Based upon our review, DAI adequately implemented the
corrective actions for all 6 findings. A summary of the findings is as follows:


                                                 8
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                       For the Period February 15, 2005 to June 30, 2009


SUMMARY

   •   The audit contained 1 finding related to updating DAI’s procedure manuals.

   •   The audit contained 1 finding related to an unreconciled amount in petty cash.

   •   The audit contained 1 finding related to the project inventory list.

   •   The audit contained 1 finding related to personnel files.

   •   The audit contained 1 finding related to the justification for salary increases.

   •   The audit contained 1 finding related to the Information Technology (IT) policies.


USAID Audit Report No. 5-306-07-002-P

USAID performed a program review of the ADP/E Program on February 13, 2007. This
program review identified 2 findings. Based upon our review, DAI adequately implemented the
corrective actions for both findings. A summary of the findings is as follows:

   •   The audit contained 1 finding related to the program rollout being slower than expected.

   •   The audit contained 1 finding related to the key program activities not being fully
       implemented.




                                                 9
Board of Directors
Development Alternatives, Inc.
7600 Wisconsin Avenue, Suite 200
Bethesda, Maryland 20814



                          INDEPENDENT AUDITOR’S REPORT
                      ON THE FUND ACCOUNTABILITY STATEMENT


We have audited the Fund Accountability Statement of Development Alternatives, Inc. (DAI) for
Task Order No. 306-M-00-05-00515-00 (Task Order) with the United States Agency for
International Development (USAID) for the period February 15, 2005 through June 30, 2009.
The Fund Accountability Statement is the responsibility of DAI’s management.                Our
responsibility is to express an opinion on the Fund Accountability Statement based on our audit.

We conducted our audit of the Fund Accountability Statement in accordance with Government
Auditing Standards issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
Fund Accountability Statement is free of material misstatement. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the Fund Accountability
Statement. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall Fund Accountability
Statement presentation. We believe that our audit provides a reasonable basis for our opinion.

DAI did not maintain records supporting the costs incurred by its primary subcontractor during
the period February 15, 2005 through June 30, 2009. Additionally, the primary subcontractor
filed bankruptcy in February 2009. Costs incurred and reported by the subcontractor during this
period were $1,121,227 and $326,192 for labor and other direct costs, respectively. However,
due to a lack of records available for audit, we were unable to determine whether any
adjustments to these amounts were necessary.

We also identified several transactions totaling $23,701,824 that were questionable based upon
our review of the underlying support for the specified transactions. The ultimate determination
of whether the identified questioned costs are to be accepted or disallowed rests with the
USAID.

In our opinion, except for the possible effects of the matters described in the preceding
paragraphs and the ultimate determination and resolution of the identified questioned costs, the
Fund Accountability Statement referred to above presents fairly, in all material respects,
program revenues, costs incurred and reimbursed, and items and technical assistance directly
procured by USAID for the indicated period in accordance with the terms of the Agreement and
in conformity with the basis of accounting described in Note 2.


                                              10
Board of Directors
Development Alternatives, Inc.
7600 Wisconsin Avenue, Suite 200
Bethesda, Maryland 20814

In accordance with Government Auditing Standards, we have also issued our reports dated
June 26, 2013 on our consideration of DAI’s internal control over financial reporting and our
tests of its compliance with certain provisions of laws and regulations. Those reports are an
integral part of an audit performed in accordance with Government Auditing Standards and
should be read in conjunction with this Independent’s Auditor’s Report in considering the results
of our audit.

This report is intended for the information of Development Alternatives, Inc., United States
Agency for International Development, and the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Irvine, California
June 26, 2013




                                               11
                                   DEVELOPMENT ALTERNATIVES, INC.
                                    Financial Audit of Costs Incurred under
                                     Contract No. 306-M-00-05-00515-00

                                         Fund Accountability Statement

                              For the Period February 15, 2005 through June 30, 2009



                                                                                    Questioned Costs
                                         Budget                Actual           Ineligible   Unsupported     Notes
Revenues:
   306-M-00-05-00515-00                $118,386,801    $115,521,247         $         -    $          -        (3)

Total revenues                          118,386,801       115,521,247                 -               -

Costs incurred:
   DAI Expat GSA labor                                                                -                         (4)
   DAI CCN GSA labor                                                                  -                         (5)
   Transportation and allowances                                                      -                         (6)
   BearingPoint GSA labor                                                             -                         (7)
   BearingPoint GSA ODC                                                               -                         (7)
   Other direct costs/G&A                                                             -                      (8), (11)
   Subcontracts                                                                       -                         (9)
   Implementation funds                                                               -                     (10), (11)
   Fixed fee                                                                          -

Total costs incurred                    118,386,801       115,521,246                 -        25,149,243

Outstanding fund balance           $              -   $                 1   $         -    $ (25,149,243)     (12)




                                    See Notes to Fund Accountability Statement

                                                          12
                        DEVELOPMENT ALTERNATIVES, INC.

                           Financial Audit of Costs Incurred under
                           Task Order No. 306-M-00-05-00515-00

                          Notes to Fund Accountability Statement

                     For the Period February 15, 2005 to June 30, 2009


(1)   Status and Operation

      Development Alternatives, Inc. (DAI) was founded in 1970 with the intent on providing a
      more dynamic and effective brand of development assistance. DAI provides integrated
      solutions in corporate services, economic growth, environment and energy, governance,
      health, and stability. DAI has regional offices in Jordan, Mexico, Pakistan, Palestine,
      South Africa, and the United Kingdom.

      Effective February 15, 2005, the United States Agency for International Development
      (USAID) entered into Task Order No. 306-M-00-05-00515-00 (Task Order) with DAI in
      the total estimated amount of $108,386,801. At the time of award, USAID obligated
      $1,800,000. The original period of performance was through February 14, 2009. This
      Task Order was modified 15 times increasing the total amount to $118,386,802 and
      extending the period of performance through June 30, 2009.

      The purpose of the Task Order to DAI was to implement the Alternative Livelihood
      Program for the Eastern Region (ALP/E) in the eastern provinces of Kunar, Laghman,
      and Nangarhar. In 2004, the eastern provinces accounted for almost one-third of all of
      Afghanistan’s poppy production, and in Nangarhar, the number of households involved
      in the opium economy was double that of the national average (more than 70 percent of
      families). The Task Order was modified on October 3, 2007 to rename the ALP/E to the
      Alternative Development Program East (ADP/E).

      ADP/E’s goal was to accelerate broad-based, sustainable regional economic
      development in ways that provide new opportunities for Afghans in the licit economy in
      the eastern region of Afghanistan. The program had two objectives: (1) to help
      accelerate licit economic growth and business activity, and (2) to help provide an
      immediate alternative source of income to poor households whose livelihoods depend,
      directly or indirectly, on the opium economy.

      To carry out the program, DAI conducted training in livestock husbandry, business skills,
      agricultural practices, introduced a mobile phone system, rehabilitated roads and
      irrigation canals, and provided support to farmers, government officials and business
      owners.




                                             13
                       DEVELOPMENT ALTERNATIVES, INC.

                          Financial Audit of Costs Incurred under
                          Task Order No. 306-M-00-05-00515-00

                          Notes to Fund Accountability Statement

                                       (Continued)


(2)   Summary of Significant Accounting Policies

      (a)    Basis of Accounting

             The Fund Accountability Statement reflects the revenues received and expenses
             incurred under the Task Order. It has been prepared on the accrual basis of
             accounting. Under the accrual basis of accounting, revenues are recognized
             when earned and expenses are recognized when incurred.

      (b)    Foreign Currency Conversion Method

             DAI converts its expenses that were paid in local currency (Afghanis) into
             reporting currency (U.S. Dollar) by applying an average monthly rate based upon
             the bank rates used to transfer funds between U.S. dollar account and Afghanis
             account.

      (c)    Questioned Costs

             There are two categories of questioned costs, ineligible and unsupported.
             Ineligible costs are those costs that are deemed to not be allowable in
             accordance with the terms of the Task Order and applicable laws and
             regulations. Unsupported costs are those costs for which no or inadequate
             supporting documentation was provided for our review.


(3)   Revenues

      As of June 30, 2009, DAI has received $115,521,247 in payments from USAID under the
      Task Order.


(4)   DAI Expat GSA Labor

      DAI reported DAI Expat GSA labor costs, which include applicable fringe and overhead,
      in the amount of $10,492,113 for the period February 15, 2005 through June 30, 2009.
      Unsupported DAI Expat GSA Labor costs consisted of the following. See Finding 2013-
      2 in the Findings and Responses section of this report.




                                            14
                         DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                           Notes to Fund Accountability Statement

                                           (Continued)


(4)   DAI Expat GSA Labor (Continued)

                                                                        Number      Questioned
                                  Observation                           of Errors     Cost
         DAI was unable to provide supporting documentation such as          7      $874,517
          timesheets, payroll ledgers, and all other relevant support
         Missing timesheets                                                 1          8,603
         Missing approval from supervisor for time sheet                    1            976

         Total questioned costs related to DAI Expat GSA Labor and
          applicable fringe and overhead                                    9       $884,096


(5)   DAI CCN GSA Labor

      DAI reported Cooperating Country National (CCN) GSA Labor costs, which include
      applicable fringe and overhead, in the amount of $4,969,862 for the period February 15,
      2005 through June 30, 2009. For three of the invoices tested, DAI was not able to
      provide supporting documentation such as timesheets, payroll registers and other
      relevant support. This resulted in questioned costs, including applicable fringe and
      overhead, of $13,182. See Finding 2013-2 in the Findings and Responses section of
      this report.


(6)   Transportation and Allowances

      DAI reported transportation and allowances costs in the amount of $3,698,332 for the
      period February 15, 2005 through June 30, 2009. Unsupported transportation and
      allowance costs consisted of the following. See Finding 2013-2 in the Findings and
      Responses section of this report.

                                                                        Number      Questioned
                                 Observation                            of Errors     Cost
         No supporting documentation provided                              12       $148,340
         Support provided was less than amount incurred                      1            149
         Travel voucher submitted beyond required timeframe                  1            150

         Total questioned costs related to transportation and
          allowances                                                       14       $148,639




                                                15
                        DEVELOPMENT ALTERNATIVES, INC.

                           Financial Audit of Costs Incurred under
                           Task Order No. 306-M-00-05-00515-00

                           Notes to Fund Accountability Statement

                                          (Continued)


(7)   BearingPoint

      DAI reported BearingPoint GSA labor and other direct costs in the amount of $1,121,227
      and $326,192, respectively, for the period February 15, 2005 through March 30, 2009.
      DAI entered into a contract teaming agreement with BearingPoint, Inc. in 2005. During
      the life of the Task Order, DAI did not obtain support for the expenses incurred by
      BearingPoint, Inc., nor performed adequate subcontractor monitoring to ensure
      expenses claimed were adequately supported. In February 2009, BearingPoint, Inc.
      filed for Chapter 11 bankruptcy. All records related to DAI’s ADP/E program were no
      longer available. Total costs incurred by DAI under the contract teaming agreement with
      BearingPoint, Inc. included labor and other direct costs in the amount of $1,121,227 and
      $326,192, respectively. See Finding 2013-4 in the Findings and Responses section of
      this report.


(8)   Other Direct Costs/G&A

      DAI reported other direct costs/general and administrative (G&A) costs in the amount of
      $19,819,980 for the period February 15, 2005 through June 30, 2009. Unsupported
      other direct costs/G&A costs consisted of the following:

      Temporary Consultant

      As described in Note 11, a portion of the temporary consultant costs claimed under
      Other Direct Costs/G&A were unsupported due to identical fingerprints and/or signatures
      and other exceptions identified. Total unsupported temporary consultant costs included
      as other direct costs/G&A were             . See Finding 2013-1 in the Findings and
      Responses section of this report.

      Other Expenses Included as Other Direct Costs

      We noted the following unsupported costs for various other expenses included as other
      direct costs/G&A. See Finding 2013-2 in the Findings and Responses section of this
      report.
                                                                        Number      Questioned
                                   Observation                          of Errors     Cost
         Payment made to an individual, which was not in accordance
          with the terms and conditions of the invoice which requires
          payment be made to the vendor                                    25
         Missing required certifications and payment was made to an
          individual instead of the vendor                                  3
         No supporting documentation provided                              31




                                               16
                        DEVELOPMENT ALTERNATIVES, INC.

                           Financial Audit of Costs Incurred under
                           Task Order No. 306-M-00-05-00515-00

                           Notes to Fund Accountability Statement

                                          (Continued)


(8)   Other Direct Costs/G&A (Continued)

                                                                          Number      Questioned
                                    Observation                           of Errors     Cost
         Missing goods delivery receipt, invoice date prior to purchase
           request date and payment was made to an individual instead
           of the vendor                                                      2
         Missing Contracting Officer approval and payment was made
           to an individual instead of the vendor                             2
         Invoice date prior to purchase request date and payment was
           made to an individual instead of the vendor                        1
         Missing purchase order                                               5
         Missing goods delivery receipt, invoice date prior to purchase
           request date and payment was not fully supported                   1
         Missing goods delivery receipt and invoice date was after
           request for payment and check dates                                1
         No approval on purchase order                                        3
         Missing goods delivery receipt and payment was made to an
           individual instead of the vendor                                   1
         Missing invoice                                                      3
         Missing goods delivery receipt and invoice date was after
           check date                                                         1
         Missing invoice and payment was made to an individual
           instead of the vendor                                              1
         Missing payment request form                                        18
         Invoice date prior to purchase request date                          2
         Payment request form not mathematically correct                      1
         Invoice not translated to English and payment was made to an
           individual instead of the vendor                                   1
         Payment not fully supported and advance not liquidated within
           72 hours                                                           1
         Missing quotes and payment was made to an individual
           instead of the vendor                                              1
         Missing payment support                                              3
         Payment not fully supported and invoice not translated to
           English                                                            2
         Invoice date prior to purchase request date and payment was
           made to an individual instead of the vendor                        1
         Advance payment was not liquidated within 72 hours                   4
         Invoice provided was less than amount incurred                       2
         Missing payment request form and advance not liquidated
           within 72 hours                                                    1
         Missing quotes                                                       1
         Missing goods delivery receipt and invoice not translated to
           English                                                            1




                                               17
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                            Notes to Fund Accountability Statement

                                            (Continued)


(8)   Other Direct Costs/G&A (Continued)

                                                                           Number      Questioned
                                      Condition                            of Errors     Cost
          Missing payment request form, goods delivery receipt and
            payment support                                                      2     $
          Missing purchase request form and items purchased did not
            match goods delivery receipt                                         1
          Missing payment request form and payment was made to an
            individual instead of the vendor                                     1
          Missing payment request form, purchase request form, goods
          delivery receipt and invoice was not mathematically correct            1
          Missing payment request form and payment support                       3
          Employee paid at a rate in excess of the stated rate per the
            employment agreement                                                 2
          Missing goods delivery receipt, advance not liquidated within
            72 hours and payment was made to an individual instead of
            the vendor                                                           1
          Missing payment request form and item purchased did not
            match goods delivery receipt                                        1
          Item purchased not listed on purchase request form                    1
          Payment not fully supported                                           3
          Various other errors                                                 10

            Total questioned other direct costs                               145

      G&A

      The negotiated indirect cost rates were as follows:

                        Effective Period                            Indirect Cost Rates
                                                       Home         Part Time and
                                                  Office/Overseas     Intermittent
           Type        From      Through          Fringe Benefits   Fringe Benefits Overhead        G&A
        Provisional    1/1/05    12/31/05
        Provisional    1/1/06    12/31/06
        Provisional    1/1/07    12/31/07
        Provisional    1/1/08    12/31/08
        Provisional    1/1/09    12/31/09




                                                   18
                        DEVELOPMENT ALTERNATIVES, INC.

                          Financial Audit of Costs Incurred under
                          Task Order No. 306-M-00-05-00515-00

                          Notes to Fund Accountability Statement

                                         (Continued)


(8)   Other Direct Costs/G&A (Continued)

      Since costs were questioned in other cost categories, associated G&A costs have also
      been questioned as follows. See Finding 2013-2 in the Findings and Responses section
      of this report.

                                                       Questioned       Associated
                        Cost Category                    Cost           G&A Costs
          Other direct costs/G&A
          Subcontracts
          Implementation funds
          Temporary consultants
          Cash-for-work

            Total questioned G&A costs


      Total questioned other direct costs/G&A are as followed:


                                                         Questioned
                         Cost Category                     Cost
          Temporary consultants                          $
          Other direct costs
          G&A

            Total questioned other direct costs/G&A      $6,267,129


(9)   Subcontracts

      DAI reported subcontract costs in the amount of $7,179,088 for the period February 15,
      2005 through June 30, 2009. Unsupported subcontract costs consisted of the following.
      See Finding 2013-2 in the Findings and Responses section of this report.




                                             19
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                             Notes to Fund Accountability Statement

                                             (Continued)


(9)    Subcontracts (Continued)

                                                                           Number      Questioned
                                     Condition                             of Errors     Cost
          Missing timesheets                                                   6
          Missing timesheets and missing receipts                              1
          Missing receipts, cost incurred prior to subcontractor billing
           period but no evidence provided to ensure it had not been
           previously billed, and per diem not detailed                        1
          Missing receipts and post differential did not agree to
           timesheet                                                           1

            Total questioned subcontract costs                                 9


(10)   Implementation Funds

       DAI reported implementation fund costs in the amount of $63,811,518 for the period
       February 15, 2005 through June 30, 2009. Unsupported implementation fund costs
       consisted of the following.

       Temporary Consultant and Cash-for-Work

       As described in Note 11, a portion of temporary consultant costs, as well as all Cash-for-
       Work (CFW) payments included in implementation funds, were unsupported due to
       identical fingerprints and/or signatures and other exceptions identified.           Total
       unsupported temporary consultant and CFW payments were                                and
                     , respectively. See Finding 2013-1 in the Findings and Responses section
       of this report.

       Other Expenses Included as Implementation Funds

       During our testing of other expenses accounts reported under implementation funds, the
       following unsupported costs were noted. See Finding 2013-2 in the Findings and
       Responses section of this report.




                                                  20
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                             Notes to Fund Accountability Statement

                                            (Continued)


(10)   Implementation Funds (Continued)

                                                                             Number      Questioned
                                      Condition                              of Errors     Cost
          Payment was made to an individual instead of the vendor                 24
          Payment was not made in accordance with the terms and
            conditions of the invoice by the payment being made to an               3
            individual instead of the vendor and invoice was not
            translated to English
          No supporting documentation provided                                     13
          Payment not fully supported, missing invoice and payment
            was made to an individual instead of the vendor                        15
          Payment was not made in accordance with the terms and
            conditions of the invoice by the payment being made to an               1
            individual instead of the vendor and invoice date was prior to
            goods delivery receipt
          Missing documents required per subcontract                                1
          Advance not liquidated within 72 hours                                    7
          No purchase order                                                         1
          Missing payment support                                                  10
          Invoice not translated to English                                         1
          Payment not fully supported and missing invoice                           3
          Missing payment request and missing rental agreement                      3
          Individual receiving payment was different than individual per
            rental agreement                                                        2
          Missing payment request                                                   2
          Various other errors                                                     12

            Total questioned other expenses under implementation
             funds                                                                 98

       Total questioned implementation funds are as follows:


                                                                      Questioned
                         Cost Category                                  Cost
           Temporary consultants                                  $
           Cash-for-Work
           Other expenses under implementation funds

            Total questioned implementation funds                 $




                                                  21
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                             Notes to Fund Accountability Statement

                                              (Continued)


(11)   Temporary Consultants and Cash-for-Work Payments

       During our review of temporary consultants and the CFW Program, we noted identical
       fingerprints and/or signatures on the timesheets and receipt of payment forms. In
       addition, we identified other exceptions including lack of approval from the Shura, who is
       the council member of the local Afghanistan villages, on the timesheets; receipt of
       payment forms were not signed by two DAI employees; the home village of day laborers
       was not listed on the timesheets; and no Advance Request and Liquidation Form was
       included as required by DAI’s policies. All costs associated with the temporary
       consultants and CFW Program have been questioned. See Finding 2013-1 in the
       Findings and Responses section of this report.

       DAI incurred $11,798,501, including G&A costs, for the CFW Program reported under
       the implementation funds cost category as follows.

                                          Questioned         Associated          Total
              Cost Category              Project Costs       G&A Costs     Questioned Costs
           Implementation funds          $                    $              $11,798,501

       DAI incurred $4,070,489, including G&A costs, for temporary consultants under the other
       direct costs/G&A and implementation funds cost categories as follows.

                                                            Questioned                    Total
                                                              Project     Associated   Questioned
                         Cost Category                        Costs       G&A Costs       Costs
        Other direct costs/G&A                              $              $           $ 608,692
        Implementation Funds                                                            3,461,797

         Total temporary consultants questioned costs       $              $           $4,070,489


(12)   Reconciliations

       As of June 30, 2009, DAI received $1 in excess of its expenses under the Contract. This
       excess was due to rounding within the FAS. There is no cash balance carried by DAI.




                                                   22
Board of Directors
Development Alternatives, Inc.
7600 Wisconsin Avenue, Suite 200
Bethesda, Maryland 20814



               INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL


We have audited the Fund Accountability Statement, with respect to Task Order No. 306-M-00-
05-00515-00 (Task Order), of Development Alternatives, Inc. (DAI) for the period February 15,
2005 through June 30, 2009, and have issued our report thereon dated June 26, 2013. We
conducted our audit in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States.

Management of DAI is responsible for establishing and maintaining effective internal control
over financial reporting. In planning and performing our audit, we considered DAI’s internal
control over financial reporting, with respect to the Task Order, as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the Fund Accountability
Statement, but not for the purpose of expressing an opinion on the effectiveness of DAI’s
internal control over financial reporting with respect to the Task Order. Accordingly, we do not
express an opinion on the effectiveness of DAI’s internal control over financial reporting with
respect to the Task Order.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and was not designed to identify all deficiencies
in internal control over financial reporting that might be deficiencies, significant deficiencies or
material weaknesses. However, as described in the accompanying Findings and Responses,
we identified certain deficiencies in internal control over financial reporting that we consider to
be material weaknesses, and another deficiency that we consider to be a significant deficiency.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. We consider the deficiencies described in the
accompanying Findings and Reponses as items 2013-1, 2013-2 and 2013-4 to be material
weaknesses.




                                                23
Board of Directors
Development Alternatives, Inc.
7600 Wisconsin Avenue, Suite 200
Bethesda, Maryland 20814

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance. We consider the deficiency described in the accompanying Findings and
Responses as item 2013-3 to be a significant deficiency.

DAI’s responses to the findings identified in our audit are described in the accompanying
Findings and Responses. We did not audit DAI’s responses and, accordingly, we express no
opinion on it.

This report is intended for the information of Development Alternatives, Inc., United States
Agency for International Development, and the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Irvine, California
June 26, 2013




                                                  24
Board of Directors
Development Alternatives, Inc.
7600 Wisconsin Avenue, Suite 200
Bethesda, Maryland 20814



                     INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE


We have audited the Fund Accountability Statement, with respect to Task Order No. 306-M-00-
05-00515-00 (Task Order), of Development Alternatives, Inc. (DAI) for the period February 15,
2005 through June 30, 2009, and have issued our report thereon dated June 26, 2013. We
conducted our audit in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States.

As part of obtaining reasonable assurance about whether DAI’s Fund Accountability Statement
is free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of Fund Accountability Statement amounts.
However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion. The results of our tests disclosed an
instance of noncompliance or other matters that is required to be reported under Government
Auditing Standards and which is described in the accompanying Findings and Responses as
item 2013-5.

DAI’s responses to the findings identified in our audit are described in the accompanying
Findings and Responses. We did not audit DAI’s responses and, accordingly, we express no
opinion on it.

This report is intended for the information of Development Alternatives, Inc., United States
Agency for International Development, and the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Irvine, California
June 26 2013



                                               25
                          DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                                    Findings and Responses

                       For the Period February 15, 2005 to June 30, 2009


2013-1: Identical Fingerprints and/or Signatures Identified on Cash-for-Work Programs
and Temporary Consultants Costs

Condition:
Development Alternatives, Inc. (DAI) obtained fingerprints and/or signatures from the workers
as proof of support that the individual received payment for the work performed. The result of
this review disclosed a high incidence of irregularities. Specifically, we noted:

   •   The fingerprints and/or signatures of the workers hired under CFW programs and
       temporary consultants appeared to be identical;

   •   Timesheets used for proof of payment did not match the number of days paid; and

   •   The home village of the day laborers paid by the CFW program could not be identified
       and thus the target area benefited by the CFW program could not be determined. The
       total of these exceptions accounted for approximately 32% and 34% of the samples we
       tested for CFW and temporary consultants, respectively.

In addition, there were other exceptions noted, including a lack of approval from the local Shura
on the timesheets, receipt of payment forms that were not signed by two DAI employees, as
required by DAI internal policies, to ensure adequate internal controls over safeguarding cash,
and missing Advance Request and Liquidation Forms which were required by DAI’s policies.

Given these irregularities, it is unclear whether the payments made under the CFW Program
and temporary consultants were to the individuals entitled to receive those payments.


Cause:
According to DAI, this condition occurred due to difficulties in performing adequate oversight in
a hostile environment in Afghanistan. DAI indicated that identical fingerprints might be due to
the Shura sometimes affixing his fingerprint to the timesheets in the absence of the recipient. In
addition, due to scheduling conflicts, there were instances where only one DAI employee could
go to the village to make the payments instead of having two DAI employees distributing the
payments.




                                               26
                          DEVELOPMENT ALTERNATIVES, INC.

                               Financial Audit of Costs Incurred under
                               Task Order No. 306-M-00-05-00515-00

                                      Findings and Responses

                                             (Continued)


2013-1: Identical Fingerprints and/or Signatures Identified on Cash-for-Work Programs
and Temporary Consultants Costs (Continued)

Criteria:
48 CFR 31.201-2, Determining Allowability, states, in part:

       “…(d) A contractor is responsible for accounting for costs appropriately and for
       maintaining records, including supporting documentation, adequate to
       demonstrate that costs claimed have been incurred, are allocable to the contract,
       and comply with applicable cost principles in this subpart and agency
       supplements…”

Additionally, 48 CFR 52.215-2, Audit and Records – Negotiation, states, in part:

       “…(b) Examination of costs. If this is a cost-reimbursement, incentive, time-and-
       materials, labor-hour, or price redeterminable contract, or any combination of
       these, the Contractor shall maintain…all records and other evidence sufficient to
       reflect properly all costs claimed to have been incurred or anticipated to be
       incurred directly or indirectly in performance of this contract…”


Effect:
Missing signatures on the timesheets does not allow DAI to ensure that payments were made to
the intended recipients. Additionally, only having one DAI employee present during payment to
the laborers does not allow for adequate segregation of duties, given that payments are made in
cash, and cannot ensure that the laborers have received their earned wages. This increases
the possibility that cash was misappropriated by intermediaries. DAI incurred a total of
$15,868,990 of which $11,798,501, including general and administrative costs (G&A), was
attributable to the CFW labor activities, and $4,070,489, including G&A, was attributable to
temporary consultants. These activities are claimed under two cost categories as follows:

CFW Program:

                                     Questioned          Associated         Total
           Cost Category            Project Costs        G&A Costs    Questioned Costs
        Implementation funds        $                     $             $11,798,501




                                                    27
                             DEVELOPMENT ALTERNATIVES, INC.

                                Financial Audit of Costs Incurred under
                                Task Order No. 306-M-00-05-00515-00

                                          Findings and Responses

                                               (Continued)


2013-1: Identical Fingerprints and/or Signatures Identified on Cash-for-Work Programs
and Temporary Consultants Costs (Continued)

Temporary Consultants:

                                                         Questioned                   Total
                                                           Project    Associated   Questioned
                          Cost Category                    Costs      G&A Costs       Costs
         Other direct costs/G&A                          $            $            $ 608,692
         Implementation Funds                                                       3,461,797

          Total temporary consultants questioned costs   $            $            $4,070,489


Recommendation:
   (1) We recommend that DAI either provide the missing support to USAID or return
       $15,868,990 for insufficiently supported CFW and temporary consultant payments.

   (2)     We recommend that DAI establish appropriate procedures and controls to strengthen
           its monitoring of Afghanistan Vouchers for any future CFW Program and temporary
           consultant payments to ensure that intended beneficiaries receive program inputs and
           to detect irregularities, such as those identified by this audit, and address them in a
           timely manner.




                                                   28
                        DEVELOPMENT ALTERNATIVES, INC.

                           Financial Audit of Costs Incurred under
                           Task Order No. 306-M-00-05-00515-00

                                  Findings and Responses

                                        (Continued)


2013-2: Lack of Adherence to Procurement Procedures

Condition:
DAI Expat GSA labor, DAI CCN GSA labor, transportation and allowances, other direct
costs/G&A, subcontracts, and implementation funds, were tested for compliance with the Task
Order. A total of 593 transactions amounting to $12,970,410 were tested, and total questioned
costs of $7,832,834 were identified. The following exceptions were noted regarding a lack of
adherence to procurement procedures. See Appendix B for details related to each of the
questioned costs noted below.

   •   DAI reported DAI Expat GSA labor costs, which include applicable fringe and overhead,
       in the amount of $10,492,113. Total questioned costs related to DAI Expat GSA Labor
       and applicable fringe and overhead were $884,096 and consisted of the following types
       of exceptions:
           o DAI was unable to provide supporting documentation such as timesheets, payroll
               ledgers, and all other relevant support;
           o Missing timesheets; and
           o Missing approvals from supervisor for timesheets.

   •   DAI reported DAI CCN GSA labor, which include applicable fringe and overhead, in the
       amount of $4,969,862. Total questioned costs related to DAI CCN GSA labor and
       applicable fringe and overhead were $13,182 and consisted of DAI being unable to
       provide supporting documentation such as timesheets, payroll ledgers, and other
       relevant support.

   •   DAI reported transportation and allowances in the amount of $3,698,332. Total
       questioned costs related to transportation and allowances were $148,639 and consisted
       of the following types of exceptions:
           o No supporting documentation was provided;
           o The amount billed to USAID was not fully supported;
           o Missing request for travel; and
           o Travel voucher was submitted after the three day timeframe required by DAI’s
               financial policies.

   •   DAI reported other direct costs/G&A costs in the amount of $19,819,980. The
       questioned costs related to other direct costs/G&A were $  and consisted of the
       following types of exceptions:
            o No supporting documentation was provided;
            o No approval was documented on the Purchase Order;
            o The amount billed to USAID was not fully supported;
            o Missing various documentation, including:
                      Request For Payment Forms;



                                             29
                        DEVELOPMENT ALTERNATIVES, INC.

                           Financial Audit of Costs Incurred under
                           Task Order No. 306-M-00-05-00515-00

                                  Findings and Responses

                                         (Continued)


2013-2: Lack of Adherence to Procurement Procedures (Continued)

                     Purchase Request Forms;
                     Goods Delivery Receipt Forms;
                     Advance Request Forms;
                     Advance Liquidation Forms;
                     Payment support;
                     Vendor invoices;
                     Quotes;
                     Timesheets;
                     Certifications, as required by the subcontract agreement; and
                     Purchase Orders to demonstrate approval for the transaction.
         o   Invoices did not have the dates listed, did not have the unit prices listed, did not
             have the quantity purchased listed, were not mathematically correct and/or were
             not translated into English;
         o   Quotes received were not translated into English;
         o   Dates of the Request For Payment Forms were prior to the Purchase Request
             Form dates;
         o   Dates of the Purchase Request Forms were after the Goods Delivery Receipt
             Form dates;
         o   Dates of the invoices were before the Purchase Request Form dates, before the
             Purchase Order dates, after the Request For Payment Form dates, after the
             checks and/or after the Goods Delivery Receipt Form dates;
         o   Dates of the quotes received were before the Purchase Request Form dates;
         o   Goods Delivery Receipt Forms did not list the quantity received or did not have
             the dates listed;
         o   Payment was not made in accordance with the terms and conditions of the
             invoice by the payment being made to an individual instead of the vendor;
         o   Advances were not liquidated within the 72 hour timeframe, as required by DAI’s
             financial policies;
         o   Assets purchased were not listed on the inventory listing;
         o   Items purchased were not listed on the Purchase Request Forms, or do not
             match the items received on the Goods Delivery Receipt Forms;
         o   Individuals who received the advances did not match the payees on the checks;
         o   Purchase Request Forms were not listed on the Advance Request Forms;
         o   No approvals were obtained from the Contracting Officer;
         o   Employees were paid in excess of the monthly rates per the Employment
             Agreements;
         o   Rental agreements were not complete;
         o   Purpose of trainings were not documented; and
         o   Request for Payment Forms were not mathematically correct.




                                              30
                         DEVELOPMENT ALTERNATIVES, INC.

                           Financial Audit of Costs Incurred under
                           Task Order No. 306-M-00-05-00515-00

                                  Findings and Responses

                                         (Continued)


2013-2: Lack of Adherence to Procurement Procedures (Continued)

   •   DAI reported subcontract costs in the amount of $7,179,088. The questioned costs
       related to subcontracts were $              and consisted of the following types of
       exceptions:
           o Missing subcontractor timesheets;
           o Missing receipts for items over $75, as required by the subcontractor
              agreements;
           o Post differentials per subcontractor invoices did not agree to the subcontractors
              timesheets;
           o Expenses incurred in a period outside of the subcontractor invoices; and
           o Per diem and allowances were not individually detailed, as required by the
              subcontractor agreements.

   •   DAI reported implementation fund costs in the amount of $63,811,518. The questioned
       costs related to implementation funds were $            and consisted of the following
       types of exceptions:
           o No supporting documentation was provided;
           o The amount billed to USAID was not fully supported;
           o Missing various documentation, including:
                      Request For Payment Forms;
                      Purchase Request Forms;
                      Goods Delivery Receipt Forms;
                      Advance Request Forms;
                      Payment support;
                      Vendor invoices;
                      Timesheets;
                      Approval of timesheets;
                      Purchase Orders to demonstrate approval of the transaction;
                      Documents required by the subcontract agreements;
                      Rental agreements;
                      Vehicle Agreement Forms;
                      Vehicle Payment Forms; and
                      Supporting documentation for travel.
           o Invoices did not have the dates listed, did not have the unit prices listed and/or
              were not translated into English;
           o Timesheets were not translated into English;
           o Dates of the Request For Payment Form were before the Vehicle Payment Sheet
              dates;
           o Dates of the invoices were after the Goods Delivery Receipt Form dates;
           o Payment was not made in accordance with the terms and conditions of the
              invoice by the payment being made to an individual instead of the vendor;



                                              31
                          DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                                    Findings and Responses

                                            (Continued)


2013-2: Lack of Adherence to Procurement Procedures (Continued)

           o   Advances were not liquidated within the 72 hour timeframe, as required by DAI’s
               financial policies;
           o   Individuals who received payments were not the same individuals who signed the
               rental agreements;
           o   Days traveled per the Vehicle Payment Sheet did not match the days traveled
               per the Travel Request Forms;
           o   Days on the timesheets did not correlate to the days listed on the travel
               vouchers;
           o   Hours could not be substantiated due to illegible copies;
           o   Purposes of transactions were not documented; and
           o   Items purchased were not classified within the appropriate expense type.

Since costs were questioned in other cost categories, associated G&A costs have also been
questioned as follows.

                                                                           Associated
                                                          Questioned       Questioned
                          Cost Category                     Cost          Indirect Cost
            Other direct costs/G&A                        $                 $
            Subcontracts
            Implementation funds

               Total questioned G&A costs                                   $


Cause:
This condition occurred due to management not effectively implementing and monitoring its
procurement process.


Criteria:
48 CFR 31.201-2, Determining Allowability, states, in part:

       “…(d) A contractor is responsible for accounting for costs appropriately and for
       maintaining records, including supporting documentation, adequate to
       demonstrate that costs claimed have been incurred, are allocable to the contract,
       and comply with applicable cost principles in this subpart and agency
       supplements…”




                                                32
                         DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                                   Findings and Responses

                                         (Continued)


2013-2: Lack of Adherence to Procurement Procedures (Continued)

Additionally, 48 CFR 52.216-7, Allowable Cost and Payment, states, in part:

       “…(b) Reimbursing costs. For the purpose of reimbursing allowable costs…the
       term “costs” includes only -- (1) Those recorded costs that, at the time of the
       request for reimbursement, the Contractor has paid by cash, check, or other form
       of actual payment for items or services purchased directly for the contract;…”


       “…(b) Reimbursing costs. For the purpose of reimbursing allowable costs…the
       term “costs” includes only -- …(A) Supplies and services purchased directly for
       the contract and associated financing payments to subcontractors, provided
       payments determined due will be made— (1) In accordance with the terms and
       conditions of a subcontract or invoice;…”

48 CFR 31.201-2 is incorporated into 48 CFR 52.216-7, which is specifically included in
the Task Order.

AIDAR 752.211-70, Language and Measurement, states, in part:

       “…(a) The English language shall be used in all written communications
       between the parties under this contract with respect to services to be rendered
       and with respect to all documents prepared by the contractor except as otherwise
       provided in the contract or as authorized by the contracting officer…”

Additionally, DAI’s Finance Manual (Finance Staff Only) for Afghanistan Alternative
Development Program-East, states, in part:

       “Before any payments are made by the Finance Unit, all payment requests must
       follow proper procurement and financial procedures. The purpose of these
       procedures is to ensure all purchases have appropriate approvals…”

       Once the purchase request has been approved and sent to the Procurement Unit
       for processing, the Procurement Unit will either a) make the purchase first and
       then present the Finance Unit with: an invoice, the Purchase Request Form
       (PRF), a Goods Delivery Receipt (GDR), a Request For Payment (RFP); or b)
       will make an advance request by presenting the Finance Unit with an Advance
       Request Form (ARF) and the supporting PRF. The Finance Unit will provide
       Procurement with money and once the purchase is made, the Procurement Unit
       will liquidate their advance with an invoice, GDR, and supporting PRF…




                                              33
                           DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                                     Findings and Responses

                                            (Continued)


2013-2: Lack of Adherence to Procurement Procedures (Continued)

         “Appropriate backup. DAI requires that original receipts be supplied for all
         transactions, with the exception of expenditures below $25.00 and if it is not
         possible to get a receipt. Evidence of necessary approvals is required…

         Temporary Advances of Funds for Local Operations…These transactions must
         be liquidated no later than 72 hours after funds are provided…

         Each ADP-E employee, must record time daily and not from memory at the end
         of a week or some other time period. …A timesheet must be completed by each
         employee (manually), and must be signed and approved by that employee’s
         supervisor…

         Fixed Assets. …Items that have one year or more of useful life and cost $500 or
         over per unit are considered as non-expendable…”


Effect:
Lack of support and adherence to procurement procedures does not allow DAI to demonstrate
that USAID funds were used for intended purposes, or that goods and services were actually
received or procured at a reasonable cost. Based upon the actual results of our testing, costs in
the amount of $7,832,834 were questioned. The sampled costs were statistically selected. Had
the results of our testing been extrapolated to the population of each of the affected cost
categories, the total questioned costs related to a lack of adherence to procurement procedures
would have been $47,124,819.


Recommendation:
   (1) We recommend that DAI either provide missing support to USAID or return $7,832,834
       for the expenses which were inadequately supported, lacked management approval,
       or did not follow procurement procedures.

   (2)    We recommend that DAI review its accounting and procurement policies to ensure that
          the policies are reasonable and are based on the actual activities occurring in the field.

   (3)    We recommend that DAI comply with the terms of future Task Orders and the related
          Federal regulations by including all required supporting documentation behind
          transactions being requested for reimbursement.




                                                 34
                         DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                                   Findings and Responses

                                          (Continued)


2013-3: Inadequate Time Reporting Policy Resulting in Estimating Employee’s Days
Worked

Condition:
DAI’s timesheet and time keeping policy states, “Timesheets for all local staff are due 3 working
days before the last working day of the month and must be received by the finance office on
time.” This policy has resulted in the time recorded for the last three days to be an estimate,
and the necessary adjustments were never made to reflect the actual time worked, if different. A
reconciliation to adjust the estimated hours to actual was not provided.


Cause:
DAI’s timekeeping policy was not properly developed to indicate that a reconciliation needs to
be performed to ensure that the amount of hours worked on the last three days of the previous
month were accurate. Although not explicitly stated in the timekeeping policy, DAI indicated that
a reconciliation to reflect the actual time incurred had been performed, whenever necessary.
However, such reconciliation was never provided during the audit.


Criteria:
48 CFR 31.205-6, Compensation for personal services, states, in part:

       “(a) General. Compensation for personal services is allowable subject to the following
       criteria… (1) Compensation for personal services must be for work performed by the
       employee in the current year and must not represent a retroactive adjustment of prior
       year’s salaries or wages…”

Additionally, 48 CFR 52.232-7, Payments under Time-and-Materials and Labor-Hour Contracts,
states, in part:

       “The Government will pay the Contractor as follows upon submission of vouchers… (a)
       Hourly Rate. …payment for labor that meets the labor category qualifications of a labor
       category specified in the contract that are— (i) Performed by the Contractor; (ii)
       Performed by the subcontractors;…”

The criteria under both 48 CFR 31.205-6 and 48 CFR 52.232-7 indicate that compensation can
only be charged for actual time work and not based upon estimates of time worked.




                                               35
                         DEVELOPMENT ALTERNATIVES, INC.

                           Financial Audit of Costs Incurred under
                           Task Order No. 306-M-00-05-00515-00

                                   Findings and Responses

                                         (Continued)


2013-3: Inadequate Time Reporting Policy Resulting in Estimating Employee’s Days
Worked (Continued)

22 CFR 226.21, Standard for financial management systems, states in part:

       “…(b) Recipients' financial management systems shall provide for the following.

       (1) Accurate, current and complete disclosure of the financial results of each
       federally-sponsored project or program in accordance with the reporting
       requirements set forth in §226.52. While USAID requires reporting on an accrual
       basis, if the recipient maintains its records on other than an accrual basis, the
       recipient shall not be required to establish an accrual accounting system. These
       recipients may develop such accrual data for their reports on the basis of an
       analysis of the documentation on hand…”

48 CFR 31.205-6 is incorporated into 48 CFR 52.216-7, which is specifically included in the
Task Order. Additionally, 48 CFR 232-7 is specifically included in the Task Order.


Effect:
Estimating days and/or hours worked, with no adjustments reflecting the actual time worked, if
different, could result in inaccurate and unallowable payroll cost claimed/reported to USAID.


Recommendation:
We recommend that DAI revise its policy to ensure that there are no estimates for the days or
hours worked. Alternatively, DAI could include in the policy that an adjustment would be
performed at the beginning of the subsequent month to reflect any changes in the estimated
amount of days or hours worked.




                                              36
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                                     Findings and Responses

                                           (Continued)


2013-4: Lack of Adequate Monitoring of Subcontractor

Condition:
DAI did not have an adequate monitoring process for program costs incurred and claimed by
BearingPoint, one its subcontractors. During the early period of the Task Order, BearingPoint
submitted reimbursement requests directly to USAID. USAID later modified the Task Order to
require BearingPoint to submit reimbursement requests through DAI, who would, in turn, submit
reimbursement requests to USAID. However, DAI did not perform any monitoring oversight for
the reimbursement requests submitted by BearingPoint. In addition, DAI never obtained and
reviewed the source documentation related to BearingPoint’s expenses incurred. Instead, DAI
only requested the summary invoices from BearingPoint and submitted those to USAID for
reimbursement. DAI did not record any of the subcontractor’s expenses in its General Ledger
nor was there a detailed listing of the transactions that occurred during the period of the Task
Order.

After the Task Order was completed, BearingPoint filed bankruptcy and was subsequently
acquired by another company. However, all source documentation related to this program was
never made available for audit.


Cause:
DAI did not properly follow and implement its policies and procedures for monitoring its
subcontractors. Instead, it relied on its subcontractor’s internal control over financial reporting.


Criteria:
22 CFR 226.51, Monitoring and reporting of program performance, states in part:

       “(a) Recipients are responsible for managing and monitoring each project,
       program, subaward, function or activity supported by the award. Recipients shall
       monitor subawards to ensure subrecipients have met the audit requirements as
       delineated in Section 226.26…”

Note that 22 CFR 226.51 is referred to within 22 CFR 226.50, which is referred to within ADS
Chapter 540. ADS Chapter 540 is explicitly listed within section A.27 of the Task Order.

Additionally, 22 CFR 226.26, Non-Federal Audits, states in part:

       “…(d) Commercial organizations shall be subject to the audit requirements of USAID or
       the prime recipient as incorporated in the award document.”




                                                37
                          DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                                    Findings and Responses

                                           (Continued)


2013-4: Lack Adequate Monitoring of Subcontractor (Continued)

Furthermore, 48 CFR 31.201-2, Determining Allowability, states, in part:

       “…(d) A contractor is responsible for accounting for costs appropriately and for
       maintaining records, including supporting documentation, adequate to
       demonstrate that costs claimed have been incurred, are allocable to the contract,
       and comply with applicable cost principles in this subpart and agency
       supplements…”

DAI’s Finance Manual for Afghanistan Alternative Development Program-East, states, in part:

       “Procedures for Payment Approval of Subcontractors…Financial approval: The
       following process should be performed by the Finance Unit:
       a. Verification if the submission of the invoice is in accordance with the clauses of
       the subcontract.
       b. Verification if the Technical Approval is attached to the invoice.
       c. Assure that the amounts claimed are considered in the approved budget of the
       subcontract and if they do not exceed the budgeted amounts.
       d. Review if the expenses are supported by the proper documentation (invoices,
       receipts or necessary justifications). Verify the arithmetic calculations.
       e. Review if the claimed expenses are eligible, reasonable and for the purpose of
       the activity…”

Additionally, DAI’s Contractor Team Arrangement 5300-300-05S-004 with BearingPoint,
states, in part:

       “1. DAI shall serve as Team Leader…2. Team Leader shall be responsible for
       consolidated billing, consolidated reporting, and project coordination of task
       orders.”


Effect:
Inadequate monitoring of subcontractors’ costs claimed does not allow DAI to demonstrate that
USAID funds were used for their intended purposes, or that goods and services were actually
received or procured at a reasonable cost. Total costs incurred by BearingPoint were
$1,447,419, which consisted of labor and other direct costs in the amounts of $1,121,227 and
$326,192, respectively.




                                                38
                       DEVELOPMENT ALTERNATIVES, INC.

                         Financial Audit of Costs Incurred under
                         Task Order No. 306-M-00-05-00515-00

                                Findings and Responses

                                      (Continued)


2013-4: Lack Adequate Monitoring of Subcontractor (Continued)

Recommendation:
   (1) We recommend that DAI either provide the missing support to USAID or return
       $1,447,419 to USAID for expenses of its subcontractor, BearingPoint, which were
       inadequately supported.

   (2)   We recommend that DAI effectively implement its policies over monitoring its
         subrecipients.




                                           39
                          DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                                    Findings and Responses

                                           (Continued)


2013-5: Maintenance of Original Supporting Documentation

Condition:
There were multiple instances where the original supporting documentation for a particular
sample could not be located or only copies were provided by DAI.


Cause:
It is DAI’s policy for the Field Office to submit all supporting documentation to the Home Office
via mail or scanning documents. During 2005 and 2006, it appears that the originals were
destroyed after the copies were sent to the Home Office.


Criteria:
22 CFR 226.53, Retention and access requirement for records, states, in part:

       “(a) This section sets forth requirements for record retention and access to
       records for awards to recipients. USAID shall not impose any other record
       retention or access requirements upon recipients.

       (b) Financial records, supporting documents, statistical records, and all other
       records pertinent to an award shall be retained for a period of three years from
       the date of submission of the final expenditure report or, for awards that are
       renewed quarterly or annually, from the date of the submission of the quarterly or
       annual financial report, as authorized by USAID. The only exceptions are the
       following:

       (1) If any litigation, claim, or audit is started before the expiration of the 3-year
       period, the records shall be retained until all litigation, claims or audit findings
       involving the records have been resolved and final action taken…

       (c) Copies of original records may be substituted for the original records if
       authorized by USAID…”


Effect:
Failure to maintain original records and supporting documentation without approval of USAID
could result in an inability to demonstrate that costs incurred were adequately supported and
related to the Task Order. Although copies of records were provided, original records should be
retained to prevent situations involving unclear and unreadable copies.




                                                40
                      DEVELOPMENT ALTERNATIVES, INC.

                         Financial Audit of Costs Incurred under
                         Task Order No. 306-M-00-05-00515-00

                                Findings and Responses

                                      (Continued)


2013-5: Maintenance of Original Supporting Documentation (Continued)

Recommendation:
We recommend that DAI revise its document maintenance procedures to ensure that the
original supporting documentation is organized and readily available.




                                           41
                                                                               APPENDIX A
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                         Review of Prior Findings and Recommendations

                        For the Period February 15, 2005 to June 30, 2009


The following prior audit recommendations were reviewed as part of the scope of this audit. We
have included the current status of each recommendation.


Internal Audit

DAI provided an Internal Audit Report performed by DAI on October 8, 2008. The following
findings and our review of the status of the corrective action taken by DAI are noted below.

   •   Updating Procedure Manuals

       Recommendation

       Project Management should review and update all of the procedure manuals (Finance,
       Procurement, Personnel, Vehicle Use and Travel Policy) and have them approved by
       the Chief of Party (COP) and distributed to the staff.

       Current Status

       DAI revised and updated the ADP/E procedure manuals after the issuance of the
       internal audit report, obtained proper approvals and provided them to the staff. The
       corrective action implemented is considered adequate and this finding has been
       resolved.

   •   Unreconciled Amount in Petty Cash

       Recommendation

       ADP/E should request that the Home Office write-off of the unreconciled amounts with
       the support of the documents in the files. Also, the Finance Manager should conduct
       surprise petty cash counts on a weekly basis to detect any difference in the petty cash
       fund balance.

       Current Status

       The Field Office submitted a write-off request along with the appropriate supporting
       documentation. The Home Office approved the write-off request on December 3, 2008
       and uploaded the write-off to the general ledger on December 16, 2008. During the
       ADP/E project, the Finance Manager performed surprise petty cash counts on a weekly
       basis. The corrective action implemented is considered adequate and this finding has
       been resolved.




                                               42
                                                                               APPENDIX A
                       DEVELOPMENT ALTERNATIVES, INC.

                          Financial Audit of Costs Incurred under
                          Task Order No. 306-M-00-05-00515-00

                      Review of Prior Findings and Recommendations

                                       (Continued)


•   Project Inventory List

    Recommendation

    The inventory list in TAMIS must be completed and updated to include all projects’
    equipment within 30 days. The schedule should include the serial number, date of
    acquisition, type of equipment, location of equipment (office), and amount. In addition,
    all project properties and equipment should be labeled and identified. A periodic
    physical count of the project assets should be conducted by the Logistics Manager and
    verified by the Deputy Chief of Party (DCOP) at least semi-annually to ensure the
    completeness of the inventory schedule. Any differences should be investigated and
    reconciled.

    Current Status

    DAI updated the inventory listing to include required information. Since the project
    completed in 2009, the inventory and equipment were disposed to the appropriate
    parties as requested by USAID. The corrective action implemented is considered
    adequate and this finding has been resolved.

•   Personnel Files

    Recommendation

    All documents included in the personnel files must be filed in a specific order following a
    checklist containing the basic documentation required from each employee. Without
    exception, all Annual Performance Evaluations must be supported with the evaluator’s
    comments on each performance factor evaluated in order to justify the salary increase.

    Current Status

    The personnel files were reviewed and documents reordered to follow the checklist.
    Justifications for any undocumented salary increases were prepared.       Any old
    performance evaluations for employees who have left DAI were not updated. A memo
    containing this explanation was signed by the COP and added to the files. The
    corrective action implemented is considered adequate and this finding has been
    resolved.




                                            43
                                                                                APPENDIX A
                          DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                        Review of Prior Findings and Recommendations

                                            (Continued)


   •   Justification for Salary Increases

       Recommendation

       The COP or the ADP/E Salary Committee must prepare written justifications for each
       salary increase resulting from an employment anniversary or promotion. New scopes of
       work must be attached. Any salary beyond the budget percentage rate must be justified,
       documented and filed in the personnel files. Management should ensure rate increases
       that require USAID approval have the required approval.

       Current Status

       DAI completed the written justifications for any undocumented salary increases along
       with the appropriate scopes of work. The corrective action implemented is considered
       adequate and this finding has been resolved.

   •   Information Technology (IT) Policies

       Recommendation

       Although the Home Office IT Department sends periodic reminders to the field about IT
       policies and procedures, ADP/E IT must prepare its own IT policies in line with the Home
       Office policies with regard to the use of equipment, internet, confidentiality of the
       information, frequency of making back-up tapes for all the ADP/E data, and data is
       safeguarded. Also, it was recommended that the back-up tapes be kept out of the office
       facilities, in a fire proof safe at the NBP or one of the guest houses.

       Current Status

       DAI has updated the ADP/E IT policies. In addition, the back-up tapes were stored in a
       fire proof safe. The corrective action implemented is considered adequate and this
       finding has been resolved.


USAID Audit Report No. 5-306-07-002-P

USAID performed a program review of the ADP/E Program on February 13, 2007. The report
indicated the following observations and recommendations, along with our assessment of the
current status.




                                                44
                                                                             APPENDIX A
                      DEVELOPMENT ALTERNATIVES, INC.

                         Financial Audit of Costs Incurred under
                         Task Order No. 306-M-00-05-00515-00

                     Review of Prior Findings and Recommendations

                                      (Continued)


•   Program Rollout Slower Than Expected

    Condition

    According to its Alternative Livelihoods Program-Eastern (ALP/E) Region statement of
    work, DAI was to launch immediate impact activities to coincide with other U.S.
    government efforts to reduce the amount of opium poppy planted in October 2005
    through December 2005. For the most part, however, DAI did not substantially
    implement its activities until February 2006. This delay occurred because DAI and
    USAID/Afghanistan focused on long-term program planning rather than on rolling out
    ALP/E activities. As a result, ALP/E missed the opportunity to induce more Afghans not
    to plant opium poppy in the winter of 2005 by providing them with an immediate
    alternative source of income.

    Current Status

    As of the date of the audit report, these ALP/E activities were in place. The corrective
    action implemented is considered adequate and this finding has been resolved.

•   Key Program Activities Not Fully Implemented

    Condition

    According to its ALP/E Region statement of work, DAI was required to develop activities
    to create or strengthen credit and financing institutions to serve all economic sectors.
    However, USAID/Afghanistan used a contract mechanism that impaired DAI from fully
    implementing such activities. Consequently, ALP/E did not deliver an anticipated $1.6
    million in microfinance loans to small and medium businesses, intended to provide about
    8,000 Afghans with alternatives to growing opium poppy. This especially impacted
    Afghan women, who wanted to pursue such alternative livelihoods as selling handicrafts,
    embroidery, and textile products.

    Current Status

    A revision to the statement of work was made within Task Order Modification #12. The
    corrective action implemented is considered adequate and this finding has been
    resolved.




                                           45
                                                                                 APPENDIX B
                         DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                              Detailed Results for Finding 2013-2

                      For the Period February 15, 2005 to June 30, 2009


Summary of Transactions Tested

There were a total of 113,862 transactions reimbursed by USAID during the period February 15,
2005 through June 30, 2009 totaling $115,521,247. Samples were selected based on the cost
categories for testing of compliance with the procurement policies and regulations within the
Task Order. A total of 593 transactions tested totaling $12,970,410 were tested.


DAI Expat GSA Labor Questioned Costs

Questioned costs related to DAI Expat GSA labor and applicable fringe and overhead:

    Sample                                                                   Questioned
    Number                               Condition                             Cost
      2      DAI was unable to provide supporting documentation such as
              timesheets, payroll ledgers, and all other relevant support     $181,964
       8     DAI was unable to provide supporting documentation such as
              timesheets, payroll ledgers, and all other relevant support      148,981
       13    DAI was unable to provide supporting documentation such as
              timesheets, payroll ledgers, and all other relevant support      195,697
       22    DAI was unable to provide supporting documentation such as
              timesheets, payroll ledgers, and all other relevant support       31,251
       31    DAI was unable to provide supporting documentation such as
              timesheets, payroll ledgers, and all other relevant support      112,618
       37    DAI was unable to provide supporting documentation such as
              timesheets, payroll ledgers, and all other relevant support      201,488
      436    DAI was unable to provide supporting documentation such as
              timesheets, payroll ledgers, and all other relevant support        2,518
     1097    Missing timesheets                                                  8,603
     8845    Missing approval from supervisor for timesheet                        976
             Total questioned costs related to DAI Expat GSA Labor and
              applicable fringe and overhead                                  $884,096


DAI CCN GSA Labor Questioned Costs

Questioned costs related to DAI CCN GSA labor and applicable fringe and overhead:

    Sample                                                                   Questioned
    Number                               Condition                             Cost
     4083    DAI was unable to provide supporting documentation such as
              timesheets, payroll ledgers, and all other relevant support.    $ 4,033




                                                46
                                                                                   APPENDIX B
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                               Detailed Results for Finding 2013-2

                                            (Continued)


DAI CCN GSA Labor Questioned Costs (Continued)

Questioned costs related to DAI CCN GSA labor and applicable fringe and overhead (Continued):

    Sample                                                                     Questioned
    Number                                Condition                              Cost
     6431     DAI was unable to provide supporting documentation such as
               timesheets, payroll ledgers, and all other relevant support.       4,115
      9584    DAI was unable to provide supporting documentation such as
               timesheets, payroll ledgers, and all other relevant support.       5,034
              Total questioned costs related to DAI CCN GSA Labor and
               applicable fringe and overhead                                   $13,182


Transportation and Allowances Questioned Costs

Questioned costs related to transportation and allowances:

    Sample                                                                     Questioned
    Number                                 Condition                             Cost
       7      No supporting documentation was provided                          $13,578
       67     No supporting documentation was provided                            4,274
      121     No supporting documentation was provided                            3,480
      353     No supporting documentation was provided                                50
     3840     No supporting documentation was provided                            1,685
     6099     The sample included one travel voucher that totaled $68, which
               is less than the amount that was billed to USAID of $149             149
      7218    No supporting documentation was provided                            1,300
      9541    No supporting documentation was provided                              240
     13693    The sample included 2 travel vouchers that totaled $150; the
               results of our testing included one instance of a missing
               request for travel and one instance where the travel voucher
               was submitted after the three days timeframe as required by
               DAI’s Finance Manual                                                 150
    14323     No supporting documentation was provided                              222
    28268     No supporting documentation was provided                              228
    Line 48   No supporting documentation was provided                           73,495
    Line 49   No supporting documentation was provided                           48,678
    Line 44   No supporting documentation was provided                            1,110
                Total questioned costs related to Transportation and
                   Allowances                                                  $148,639




                                                 47
                                                                                          APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                              Financial Audit of Costs Incurred under
                              Task Order No. 306-M-00-05-00515-00

                                Detailed Results for Finding 2013-2

                                              (Continued)


Other Direct Costs/G&A Questioned Costs

Questioned costs related to other direct costs/G&A:

    Sample                                                                             Questioned
    Number                                  Condition                                    Cost
      31      No supporting documentation was provided                                 $
      70      No supporting documentation was provided
     185      No supporting documentation was provided
     194      No supporting documentation was provided
     242      No supporting documentation was provided
     274      No approval documented on the Purchase Order
     278      The sample included one invoice that totaled $267, which is less
               than the amount billed to USAID of $       ; the results of our
               testing included the amount billed to USAID was not fully
               supported, missing Request For Payment Form, missing Goods
               Delivery Receipt, and missing payment support
      302     No supporting documentation was provided
      397     No approval documented on the Purchase Order
      403     The sample included one invoice that totaled $2,446, which is
               more than the amount billed to USAID of $            ; the results of
               our testing included missing Request For Payment Form and
               missing payment support
      404     No approval documented on the Purchase Order
      431     No supporting documentation was provided
      471     The sample included two invoices that totaled $4,050, which is
               less than the amount billed to USAID of $          ; the results of
               our testing included the amount billed to USAID was not fully
               supported, one instance of a missing vendor invoice, one
               instance where the invoice did not have the date listed, one
               instance where the invoice did not have any translation, and
               three instances where the quotes received did not have any
               translation
      474     The sample included one invoice that totaled $3,519, which is
               more than the amount billed to USAID of $            ; the results of
               our testing included one instance where the payment was not
               made in accordance with the terms and conditions of the
               invoice by the check being written to an individual and not a
               vendor, payment was not made in accordance with the terms
               and conditions of the invoice by the check being written to an
               individual and not a vendor
      477     The sample included transportation for 203 individuals that
               totaled $6,404, and $         is included within this amount; The
               results of our testing included missing payment support
      510     No Purchase Order was provided to show approval prior to
              purchase



                                                    48
                                                                                        APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                              Financial Audit of Costs Incurred under
                              Task Order No. 306-M-00-05-00515-00

                                Detailed Results for Finding 2013-2

                                             (Continued)


Other Direct Costs/G&A Questioned Costs (Continued)

Questioned costs related to other direct costs/G&A (Continued):

    Sample                                                                           Questioned
    Number                                  Condition                                  Cost
     549      The sample did not include any invoices; the results of our
               testing included one instance of a missing invoice and one
               instance where the payment was not made in accordance with
               the terms and conditions of the invoice by the check being
               written to an individual and not a vendor
      592     The sample included two invoices that totaled $858, and the
               $     is included within this amount; the results of our testing
               included missing payment support, missing Purchase Request
               Form, and two instances where no third party invoice was
               obtained
      630     The sample included only one invoice that totaled $145, which is
               less than the amount billed to USAID of $        ; the results of
               our testing included the amount billed to USAID is not fully
               supported, missing Advance Liquidation Form, missing
               Purchase Request Form, and missing payment support
      646     The sample did not include any invoices; the results of our
               testing included one instance of a missing invoice and one
               instance where the payment was not made in accordance with
               the terms and conditions of the invoice by the check being
               written to an individual and not a vendor, payment was not
               made in accordance with the terms and conditions of the
               invoice by the check being written to an individual and not a
               vendor
      683     The sample did not include any invoices; the results of our
               testing included one instance of a missing invoice, one instance
               where the payment was not made in accordance with the terms
               and conditions of the invoice by the check being written to an
               individual and not a vendor, payment was not made in
               accordance with the terms and conditions of the invoice by the
               check being written to an individual and not a vendor, and three
               instances where the date of the quotes was before the
               Purchase Request Form date
      741     No supporting documentation was provided
      790     The sample included one invoice that totaled $2,172, which is
               more than the amount billed to USAID of $          ; the results of
               our testing included missing Goods Delivery Receipt, missing
               payment support, the advance was not liquidated within the 72
               hour timeframe as required by DAI’s Finance Manual, and one
               instance where the invoice did not have a date listed




                                                   49
                                                                                            APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                               Financial Audit of Costs Incurred under
                               Task Order No. 306-M-00-05-00515-00

                                 Detailed Results for Finding 2013-2

                                               (Continued)


Other Direct Costs/G&A Questioned Costs (Continued)

Questioned costs related to other direct costs/G&A (Continued):

    Sample                                                                               Questioned
    Number                                   Condition                                     Cost
     873      No supporting documentation was provided
     876      The sample did not include any invoices; the results of our
               testing included missing Advance Request Form, missing
               Goods Delivery Receipt, missing payment support, and one
               instance of a missing invoice
      954     The sample included one invoice that totaled $899, which is
               more than the amount billed to USAID of $          ; the results of
               our testing included missing Request For Payment form
      1104    No supporting documentation was provided
      1141    The sample included one invoice that totaled $          ; the results of
               our testing included missing payment support and one instance
               where the invoice date was before the Purchase Request Form
               date
      1307    The sample included one invoice that totaled $102,312, which is
               broken out into three different transactions within the General
               Ledger, and the $           is included within this amount; the
               results of our testing include one instance where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor, payment was not made in accordance with the terms
               and conditions of the invoice by the check being written to an
               individual and not a vendor
      1346    The sample included one invoice that totaled $359,149, which is
               broken out into three different transactions within the General
               Ledger, and the $           is included within this amount; the
               results of our testing included two instances where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor, payment was not made in accordance with the terms
               and conditions of the invoice by the check being written to an
               individual and not a vendor
      1348    The sample included one invoice that totaled $359,149, which is
               broken out into three different transactions within the General
               Ledger, and the $             is included within this amount; the
               results of our testing included two instances where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor.
      1356    No supporting documentation was provided




                                                     50
                                                                                           APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                              Financial Audit of Costs Incurred under
                              Task Order No. 306-M-00-05-00515-00

                                 Detailed Results for Finding 2013-2

                                               (Continued)


Other Direct Costs/G&A Questioned Costs (Continued)

Questioned costs related to other direct costs/G&A (Continued):

    Sample                                                                              Questioned
    Number                                   Condition                                    Cost
     1362     The sample included two invoices that totaled $        ; the results
               of our testing included missing Request For Payment Form and
               missing payment support
      1384    The sample included one invoice that totaled $5,828, which is
               broken out into three different transactions within the General
               Ledger, and the $         is included within this amount; the
               results of our testing included one instance where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor
      1417    The sample included five invoices that totaled $          ; the results
               of our testing included missing Request For Payment Form and
               missing payment support
      1450    The sample included one invoice that totaled $           ; the results
               of our testing included missing payment support, one instance
               where the invoice did not have any translation, and one
               instance where the invoice did not have date listed
      1482    The sample included one invoice that totaled $62,200, which is
               broken out into three different transactions within the General
               Ledger, and the $           is included within this amount; the
               results of our testing included one instance where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor
      1488    The sample included two invoices that totaled $        ; the results
               of our testing included missing Goods Delivery Receipt, missing
               payment support, two instances where invoice dates were
               before the Purchase Request Form, two instances where the
               invoices did not have unit price, two instances where the
               translation was not specific to the item purchased, two
               instances where the quantity purchased was not included on
               the invoice, and one instance where the Request For Payment
               Form date was before the Purchase Request Form date




                                                     51
                                                                                           APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                              Financial Audit of Costs Incurred under
                              Task Order No. 306-M-00-05-00515-00

                                 Detailed Results for Finding 2013-2

                                               (Continued)


Other Direct Costs/G&A Questioned Costs (Continued)

Questioned costs related to other direct costs/G&A (Continued):

    Sample                                                                              Questioned
    Number                                   Condition                                    Cost
     1502     The sample included two invoices that totaled $40,164, which is
               broken out into three different transactions within the General
               Ledger, and the $         is included within this amount; the
               results of our testing included one instance where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor and two instances where the invoice date was before
               the purchase order date
      1522    The sample included one invoice that totaled $          ; the results
               of our testing included missing Request For Payment Form and
               missing payment support
      1526    The sample included one invoice that totaled $            ; the results
               of our testing included missing Goods Delivery Receipt, one
               instance where no quotes were obtained, one instance where
               the payment was not made in accordance with the terms and
               conditions of the invoice by the check being written to an
               individual and not a vendor, one instance where the invoice
               date was after the Request For Payment Form, one instance
               where the invoice date was after the check date, and fourteen
               instances where greenhouses purchased were not listed on the
               inventory listing
      1535    The sample included one invoice that totaled $47,160, which is
               broken out into three different transactions within the General
               Ledger, and the $           is included within this amount; the
               results of our testing included one instance where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor
      1569    The sample included five invoices that totaled $359, which is less
               than the amount billed to USAID of $          ; the results of our
               testing included the amount billed to USAID was not fully
               supported, the advance was not liquidated within the 72 hour
               timeframe as required by DAI’s Finance Manual, four instances
               where the items purchased does not match the items received
               on the Goods Delivery Receipt, and one instance where the
               item purchased was not listed on the Purchase Request Form




                                                     52
                                                                                         APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                              Financial Audit of Costs Incurred under
                              Task Order No. 306-M-00-05-00515-00

                                Detailed Results for Finding 2013-2

                                              (Continued)


Other Direct Costs/G&A Questioned Costs (Continued)

Questioned costs related to other direct costs/G&A (Continued):

    Sample                                                                            Questioned
    Number                                  Condition                                   Cost
     1594     The sample included eighteen invoices that totaled $           ; the
               results of our testing included missing Request For Payment
               Form, missing payment support, item purchased in not listed on
               the Purchase Request Form, and two instances where the
               invoices did not have dates listed
      1633    The sample included three invoices that totaled $       ; the results
               of our testing included missing Request For Payment Form,
               missing payment support, and two instances where the invoices
               did not have dates listed
      1669    The sample included three invoices that totaled $          ; the
               results of our testing included missing Request For Payment
               Form, missing payment support, one instance where the item
               purchased in not listed on the Purchase Request Form, and
               one instance where the item purchased did not match the items
               received on the Goods Delivery Receipt
      1712    No supporting documentation was provided
      1728    The sample included three invoices that totaled $          ; the
               results of our testing included missing Request For Payment
               Form and missing payment support, one instance where the
               invoice did not have the date listed, and one instance where an
               item purchased was not listed on the Purchase Request Form
      1762    The sample included one invoice that totaled $     ; the results of
               our testing included missing Request For Payment Form and
               missing payment support
      1804    The sample included six invoices that totaled $     ; the results of
               our testing included missing Request For Payment Form,
               missing payment support, and six instances where there was
               no quantity listed on the Goods Delivery Receipt
      1864    No Purchase Order was provided to show approval prior to
               purchase
      1868    The sample included one invoice that totaled $         ; the results
               of our testing included missing Purchase Request Form,
               missing Goods Delivery Receipt, missing payment support, and
               three instances of missing quotes as required by DAI's policy
      1902    The sample included two invoices that totaled $         ; the results
               of our testing included missing Request For Payment Form,
               missing payment support, and one instance where the invoice
               did not have date listed




                                                   53
                                                                                          APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                              Financial Audit of Costs Incurred under
                              Task Order No. 306-M-00-05-00515-00

                                Detailed Results for Finding 2013-2

                                              (Continued)


Other Direct Costs/G&A Questioned Costs (Continued)

Questioned costs related to other direct costs/G&A (Continued):

    Sample                                                                             Questioned
    Number                                  Condition                                    Cost
     1939     The sample included two invoices that totaled $          ; the results
               of our testing included missing Request For Payment Form,
               missing Purchase Request Form, missing Goods Delivery
               Receipt Form, missing payment support, and one instance
               where an item on the invoice did not mathematically recalculate
      1982    The sample included two invoices that totaled $2,919, which is
               less than the amount billed to USAID of $        ; the results of
               our testing included the amount billed to USAID was not fully
               supported, missing Request For Payment Form, missing
               payment support, and two instances where some items on the
               invoices were not translated
      2021    No supporting documentation was provided
      2023    The sample included four invoices that totaled $3,202, which is
               less than the amount billed to USAID of $        ; the results of
               our testing included the amount billed to USAID was not fully
               supported, missing Request For Payment Form, two instances
               where some items on the invoices were not translated, one
               instance where the item purchased did not match the item
               received on the Goods Delivery Receipt, and one instance
               where the invoice did not have a date listed
      2082    The sample included one invoice that totaled $          ; the results
               of our testing included missing Request For Payment Form and
               one instance where the invoice did not have a date listed
      2110    The sample included twenty-four invoices that totaled $         ; the
               results of our testing included missing Request For Payment
               Form, six instances where the invoice did not have a date
               listed, ten instances where no third party invoice was obtained,
               five instances where the invoice dates were before the
               Purchase Request Form, and one instance where the invoice
               was not translated
      2153    The sample included one invoice that totaled $ ; the results of
               our testing included missing Request For Payment Form
      2196    No Purchase Order was provided to show approval prior to
               purchase
      2225    No supporting documentation was provided
      2246    The sample included one invoice that totaled $       ; the results of
               our testing included one instance where the invoice was not
               translated




                                                    54
                                                                                        APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                              Financial Audit of Costs Incurred under
                              Task Order No. 306-M-00-05-00515-00

                                Detailed Results for Finding 2013-2

                                             (Continued)


Other Direct Costs/G&A Questioned Costs (Continued)

Questioned costs related to other direct costs/G&A (Continued):

    Sample                                                                           Questioned
    Number                                  Condition                                  Cost
     2258     The sample included one invoice that totaled $       ; the results
               of our testing included one instance of missing quotes as
               required by DAI's policy, one instance where the invoice did not
               have date listed, and one instance where the invoice did not
               mathematically recalculate
      2285    The sample included fourteen invoices that totaled $         ; the
               results of our testing included the advance was not liquidated
               within the 72 hour timeframe as required by DAI’s Finance
               Manual, four instances where the invoice dates were before the
               Goods Delivery Receipt date, one instance where the invoice
               did not mathematically recalculate, two instances of missing
               Purchase Request Forms, one instance where the number of
               items purchased did not match the number of items received on
               the Goods Delivery Receipt, and one instance where the
               individual who received the advance did not match payee on
               the check
      2306    The sample included ten invoices that totaled $       ; the results
               of our testing included a missing Purchase Request Form, one
               instance where an item on the invoice was not translated, two
               instances where items purchased did not match the items
               received on the Goods Delivery Receipt
      2311    The sample included one invoice that totaled $         ; the results
               of our testing included missing Goods Delivery Receipt, one
               instance where the invoice date was after the Request For
               Payment date, and one instance where the invoice date was
               after the check date
      2324    The sample included two invoices that totaled $    ; the results
               of our testing included missing Request For Payment Form
      2336    The sample included one invoice that totaled $    ; the results of
               our testing included the advance was not liquidated within the
               72 hour timeframe as required by DAI’s Finance Manual and
               one instance where the Purchase Request Form was not listed
               on the Advance Request Form
      2360    The sample included three invoices that totaled $        ; the
               results of our testing included missing Request For Payment
               Form and one instance where the item purchased did not
               match the item received on the Goods Delivery Receipt




                                                   55
                                                                                         APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                              Financial Audit of Costs Incurred under
                              Task Order No. 306-M-00-05-00515-00

                                Detailed Results for Finding 2013-2

                                              (Continued)


Other Direct Costs/G&A Questioned Costs (Continued)

Questioned costs related to other direct costs/G&A (Continued):

    Sample                                                                            Questioned
    Number                                   Condition                                  Cost
     2378     The sample included two invoices that totaled $         ; the results
               of our testing included two instances where the Purchase
               Request Forms were not listed on the Advance Request Form
      2387    The sample included eighteen invoices that totaled $            ; the
               results of our testing included missing Request For Payment
               Form, the advance was not liquidated within the 72 hour
               timeframe as required by DAI’s Finance Manual, one instance
               where the invoice did not mathematically recalculate, three
               instances where the Purchase Request Forms were not listed
               on the Advance Request Form, one instance where the invoice
               was not translated, two instances where items purchased did
               not match the items received on the Goods Delivery Receipt,
               one instance where the item purchased was not included on the
               Goods Delivery Receipt, one instance where the invoice date
               was after the Goods Delivery Receipt date, one instance where
               the Purchase Request Form date was after the Goods Delivery
               Receipt date, and one instance where the invoice did not have
               the date listed
      2404    No supporting documentation was provided
      2412    The sample included one invoice that totaled $309,827, which is
               broken out into three different transactions within the General
               Ledger, and the $           is included within this amount; the
               results of our testing included one instance where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor
      2413    The sample included one invoice that totaled $309,827, which is
               broken out into three different transactions within the General
               Ledger, and the $             is included within this amount; the
               results of our testing included one instance where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor.




                                                   56
                                                                                            APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                               Financial Audit of Costs Incurred under
                               Task Order No. 306-M-00-05-00515-00

                                 Detailed Results for Finding 2013-2

                                               (Continued)


Other Direct Costs/G&A Questioned Costs (Continued)

Questioned costs related to other direct costs/G&A (Continued):

    Sample                                                                               Questioned
    Number                                   Condition                                     Cost
     2424     The sample included one invoice that totaled $12,366, which is
               broken out into three different transactions within the General
               Ledger, and the $         is included within this amount; the
               results of our testing included one instance where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor
      2428    The sample included two invoices that totaled $               ; the
               results of our testing included one instance where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor and two instances where the invoices did not have the
               dates listed
      2482    The sample included one invoice that totaled $77,409, which is
               broken out into two different transactions within the General
               Ledger, and the $           is included within this amount; the
               results of our testing included missing Goods Delivery Receipt,
               one instance where the invoice date was before the Purchase
               Request Form date, and one instance where the amount
               charge to this expenditure type was not fully supported
      2552    The sample included one invoice that totaled $        ; the results of
               our testing included missing Request For Payment Form
      2562    The sample included one invoice that totaled $             ; the results
               of our testing included one instance where the payment was not
               made in accordance with the terms and conditions of the
               invoice by the check being written to an individual and not a
               vendor and one instance where the invoice date was before the
               Purchase Request Form date
      2658    The sample included two invoices that totaled $           ; the results
               of our testing included one instance where the payment was not
               made in accordance with the terms and conditions of the
               invoice by the check being written to an individual and not a
               vendor




                                                     57
                                                                                      APPENDIX B
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                               Detailed Results for Finding 2013-2

                                             (Continued)


Other Direct Costs/G&A Questioned Costs (Continued)

Questioned costs related to other direct costs/G&A (Continued):

    Sample                                                                         Questioned
    Number                                   Condition                               Cost
     2768     The sample included seven invoices that totaled $          ; the
               results of our testing included missing Request For Payment
               Form, missing payment support, one instance where the Goods
               Delivery Receipt was not specific in the number of items
               received, one instance where the invoice did not have any
               translation, and one instance where no Contracting Officer
               approval was obtained
      2851    The sample included one invoice that totaled $11,542, which is
               broken out into two different transactions within the General
               Ledger, and the $         is included within this amount; the
               results of our testing included one instance where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor
      2892    The sample included one invoice that totaled $69,315, which is
               broken out into two different transactions within the General
               Ledger, and the $           is included within this amount; the
               results of our testing included one instance where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor
      2915    The sample included one invoice that totaled $344,720, which is
               broken out into four different transactions within the General
               Ledger, and the $           is included within this amount; the
               results of our testing included one instance where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor
      2919    The sample included one invoice that totaled $344,720, which is
               broken out into four different transactions within the General
               Ledger, and the $             is included within this amount; the
               results of our testing included one instance where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor




                                                  58
                                                                                          APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                              Financial Audit of Costs Incurred under
                              Task Order No. 306-M-00-05-00515-00

                                Detailed Results for Finding 2013-2

                                              (Continued)


Other Direct Costs/G&A Questioned Costs (Continued)

Questioned costs related to other direct costs/G&A (Continued):

    Sample                                                                             Questioned
    Number                                   Condition                                   Cost
     2929     The sample included one invoice that totaled $29,529, which is
               broken out into three different transactions within the General
               Ledger, and the $           is included within this amount; the
               results of our testing included one instance where the invoice
               was not translated, one instance where the invoice did not have
               the date listed, and one instance where the payment was not
               made in accordance with the terms and conditions of the
               invoice by the check being written to an individual and not a
               vendor
      2936    The sample included one invoice that totaled $435,516, which is
               broken out into six different transactions within the General
               Ledger, and the $           is included within this amount; the
               results of our testing included one instance where the invoice
               date was before the Purchase Request Form, one instance
               where the invoice date was after the Goods Delivery Receipt,
               and one instance where the payment was not made in
               accordance with the terms and conditions of the invoice by the
               check being written to an individual and not a vendor
      2938    The sample included one invoice that totaled $435,516, which is
               broken out into six different transactions within the General
               Ledger, and the $             is included within this amount; the
               results of our testing included one instance where the invoice
               date was before the Purchase Request Form, one instance
               where the invoice date was after the Goods Delivery Receipt,
               and one instance where the payment was not made in
               accordance with the terms and conditions of the invoice by the
               check being written to an individual and not a vendor.
      2955    The sample included one invoice that totaled $136,832, which is
               broken out into six different transactions within the General
               Ledger, and the $           is included within this amount; the
               results of our testing included one instance where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor
      3012    The sample included one invoice that totaled $           ; the results
               of our testing included one instance where the payment was not
               made in accordance with the terms and conditions of the
               invoice by the check being written to an individual and not a
               vendor




                                                    59
                                                                                      APPENDIX B
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                               Detailed Results for Finding 2013-2

                                            (Continued)


Other Direct Costs/G&A Questioned Costs (Continued)

Questioned costs related to other direct costs/G&A (Continued):

    Sample                                                                         Questioned
    Number                                   Condition                               Cost
     3052     The sample included one invoice that totaled $            ; the
               results of our testing included missing required certifications,
               one instance where the invoice did not have the date listed, and
               one instance where the payment was not made in accordance
               with the terms and conditions of the invoice by the check being
               written to an individual and not a vendor
      3053    The sample included one invoice that totaled $            ; the
               results of our testing included missing required certifications
               and one instance where the payment was not made in
               accordance with the terms and conditions of the invoice by the
               check being written to an individual and not a vendor
      3054    The sample included one invoice that totaled $            ; the
               results of our testing included missing required certifications
               and one instance where the payment was not made in
               accordance with the terms and conditions of the invoice by the
               check being written to an individual and not a vendor
      3063    The sample included one invoice that totaled $            ; the
               results of our testing included missing required certifications
               and one instance where the payment was not made in
               accordance with the terms and conditions of the invoice by the
               check being written to an individual and not a vendor
      3079    The sample included one invoice that totaled $53,796, which is
               broken out into three different transactions within the General
               Ledger, and the $           is included within this amount; the
               results of our testing included one instance where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor and one instance where the Goods Delivery Receipts
               did not have a date listed.
      3093    The sample included one invoice that totaled $174,730, which is
               broken out into three different transactions within the General
               Ledger, and the $             is included within this amount; the
               results of our testing included missing Contractor Officer
               approval, missing required certifications, and one instance
               where the payment was not made in accordance with the terms
               and conditions of the invoice by the check being written to an
               individual and not a vendor




                                                  60
                                                                                        APPENDIX B
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                               Detailed Results for Finding 2013-2

                                             (Continued)


Other Direct Costs/G&A Questioned Costs (Continued)

Questioned costs related to Other Direct Costs/G&A (Continued):

    Sample                                                                           Questioned
    Number                                   Condition                                 Cost
     3117    The sample included one invoice that totaled $167,527, which is
              broken out into three different transactions within the General
              Ledger, and the $              is included within this amount; the
              results of our testing included missing Contractor Officer
              approval, missing required certifications, and one instance
              where the payment was not made in accordance with the terms
              and conditions of the invoice by the check being written to an
              individual and not a vendor
     3124    The sample included one invoice that totaled $218,800, which is
              broken out into three different transactions within the General
              Ledger, and the $            is included within this amount; the
              results of our testing included one instance where the payment
              was not made in accordance with the terms and conditions of
              the invoice by the check being written to an individual and not a
              vendor
     3126    The sample included one invoice that totaled $218,800, which is
              broken out into three different transactions within the General
              Ledger, and the $              is included within this amount; the
              results of our testing included one instance where the payment
              was not made in accordance with the terms and conditions of
              the invoice by the check being written to an individual and not a
              vendor
     3140    The sample included one invoice that totaled $107,744, which is
              broken out into three different transactions within the General
              Ledger, and the $            is included within this amount; the
              results of our testing included one instance where the payment
              was not made in accordance with the terms and conditions of
              the invoice by the check being written to an individual and not a
              vendor
     3195    The sample included one invoice that totaled $1,554, which is
              broken out into three different transactions within the General
              Ledger, and the $        is included within this amount; the results
              of our testing included one instance where no third party invoice
              was obtained and one instance where the payment was not
              made in accordance with the terms and conditions of the
              invoice by the check being written to an individual and not a
              vendor
     3272    No supporting documentation was provided




                                                  61
                                                                                           APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                              Financial Audit of Costs Incurred under
                              Task Order No. 306-M-00-05-00515-00

                                 Detailed Results for Finding 2013-2

                                               (Continued)


Other Direct Costs/G&A Questioned Costs (Continued)

Questioned costs related to Other Direct Costs/G&A (Continued):

    Sample                                                                              Questioned
    Number                                   Condition                                    Cost
     3656     The sample includes one employee; the results of our testing
               included an employee that was paid in excess of the monthly
               rate per Employment Agreement
     3896     No supporting documentation was provided
     4104     No supporting documentation was provided
     5752     The sample included transportation costs for one individual that
               totaled $     ; the results of our testing included one instance
               where the Rental Agreement was not complete
     6896     No supporting documentation was provided.
     7368     The sample includes one employee; the results of our testing
               included an employee that was paid in excess of the monthly
               rate per Employment Agreement
      8049    No supporting documentation was provided
      8817    No supporting documentation was provided
      9331    No supporting documentation was provided
     10686    The sample includes one employee; the results of our testing
               included missing timesheets
    15844     No supporting documentation was provided
    Line 10   The sample included one invoice that totaled $93, which is
               broken out into two different transactions within the General
               Ledger, and the $ is included within this amount; the results
               of our testing included the amount billed to USAID was not fully
               supported and missing Advance Request Form
    Line 10   The sample included one invoice that totaled $144,644, which is
               broken out into two different transactions within the General
               Ledger, and the $           is included within this amount; the
               results of our testing included no Purchase Order was provided
               to show approval prior to purchase and the amount billed to
               USAID was not fully supported
    Line 11   The sample included one invoice that totaled $ ; the results of
               our testing included missing Request For Payment Form
    Line 11   The sample included one invoice that totaled $            ; the results
               of our testing included one instance where the invoice date was
               before the Purchase Request Form
    Line 12   The sample included two invoices that totaled $        ; the results
               of our testing included missing Request For Payment Form,
               missing Purchase Request Form, and two instances where the
               purpose of the training was not documented




                                                     62
                                                                                        APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                              Financial Audit of Costs Incurred under
                              Task Order No. 306-M-00-05-00515-00

                                Detailed Results for Finding 2013-2

                                              (Continued)


Other Direct Costs/G&A Questioned Costs (Continued)

Questioned costs related to Other Direct Costs/G&A (Continued):

    Sample                                                                           Questioned
    Number                                  Condition                                  Cost
    Line 12   The sample included two invoices that totaled $          ; the
               results of our testing included one instance where the Request
               For Payment Form did not mathematically recalculate and
               payment support was missing
    Line 13   The sample included one invoice that totaled $      ; the results of
               our testing included the advance was not liquidated within the
               72 hour timeframe as required by DAI’s Finance Manual and
               one instance where the invoice did not have the dates listed
    Line 13   The sample included thirty-four invoices that totaled $13,898,
               which is less than the amount billed to USAID of $            ; the
               results of our testing included that the amount billed to USAID
               was not fully supported, the advance was not liquidated within
               the 72 hour timeframe as required by DAI’s Finance Manual,
               five instances where no third party invoice was obtained, and
               four instances where the Purchase Request Form was not
               listed on the Advance Request Form
    Line 14   The sample included fifteen invoices that totaled $        ; the
               results of our testing included the advance was not liquidated
               within the 72 hour timeframe as required by DAI’s Finance
               Manual, and four instances where the Purchase Request Form
               was not listed on the Advance Request Form
    Line 15   The sample included one invoice that totaled $ ; the results of
               our testing included missing Request For Payment Form,
               missing Purchase Request Form, and one instance where the
               purpose of the training was not documented.
    Line 17   The sample included one invoice that totaled $      ; the results of
               our testing included missing Request For Payment Form,
               missing Purchase Request Form, and one instance where the
               purpose of the training was not documented
    Line 20   The sample included one invoice that totaled $      ; the results of
               our testing included missing Request For Payment Form
    Line 24   No supporting documentation was provided
    Line 27   The sample included one invoice that totaled $      ; the results of
               our testing included missing Request For Payment Form and
               the invoice did not have the date listed
    Line 29   The sample included one invoice that totaled $      ; the results of
               our testing included missing Request For Payment Form
    Line 30   The sample included one invoice that totaled $      ; the results of
               our testing included missing Request For Payment Form




                                                   63
                                                                                        APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                              Financial Audit of Costs Incurred under
                              Task Order No. 306-M-00-05-00515-00

                                Detailed Results for Finding 2013-2

                                             (Continued)


Other Direct Costs/G&A Questioned Costs (Continued)

Questioned costs related to Other Direct Costs/G&A (Continued):

    Sample                                                                           Questioned
    Number                                 Condition                                   Cost
    Line 31   The sample included one invoice that totaled $ ; the results of
               our testing included the advance was not liquidated within the
               72 hour timeframe as required by DAI’s Finance Manual, the
               Purchase Request Form was not listed on the Advance
               Request Form, one instance where the individual who received
               the advance did not match payee on the check, and one
               instance where the invoice did not have a date listed
    Line 33   The sample included one invoice that totaled $         ; the results
               of our testing included no Purchase Order was provided to
               show approval prior to purchase
    Line 34   No supporting documentation was provided
    Line 39   No supporting documentation was provided
     Line 4   The sample included one invoice that totaled $       ; the results
               of our testing included missing Purchase Request Form and
               one instance where the payment was not made in accordance
               with the terms and conditions of the invoice by the check being
               written to an individual and not a vendor
    Line 41   The sample included one invoice that totaled $         ; the results
               of our testing included three instances of missing quotes as
               required by DAI's policy and one instance where the payment
               was not made in accordance with the terms and conditions of
               the invoice by the check being written to an individual and not a
               vendor
    Line 42   No supporting documentation was provided
    Line 50   No supporting documentation was provided
    Line 51   No supporting documentation was provided
    Line 52   No supporting documentation was provided
     Line 6   No supporting documentation was provided
     Line 7   The sample included one invoice that totaled $         ; the results
               of our testing included one instance where the payment was not
               made in accordance with the terms and conditions of the
               invoice by the check being written to an individual and not a
               vendor
     Line 8   The sample included one invoice that totaled $         ; the results
               of our testing included one instance where the payment was not
               made in accordance with the terms and conditions of the
               invoice by the check being written to an individual and not a
               vendor




                                                   64
                                                                                          APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                              Financial Audit of Costs Incurred under
                              Task Order No. 306-M-00-05-00515-00

                                Detailed Results for Finding 2013-2

                                              (Continued)


Other Direct Costs/G&A Questioned Costs (Continued)

Questioned costs related to Other Direct Costs/G&A (Continued):

    Sample                                                                            Questioned
    Number                                 Condition                                    Cost
     Line 9   The sample included one invoice that totaled $93, which is
               broken out into two different transactions within the General
               Ledger, and the $ is included within this amount; the results
               of our testing included the amount billed to USAID was not fully
               supported and missing Advance Request Form
     Line 9   The sample included one invoice that totaled $         ; the results
               of our testing included one instance where the payment was not
               made in accordance with the terms and conditions of the
               invoice by the check being written to an individual and not a
               vendor

                Total questioned costs related to other direct costs/G&A

Subcontracts Questioned Costs

Questioned costs related to Subcontracts:

    Sample                                                                            Questioned
    Number                                   Condition                                  Cost
      76      The sample included one invoice that totaled $80,605, and the
               $       is included within this amount; the results of our testing
               included two instances of missing subcontractor timesheets             $
       81     The sample included one invoice that totaled $86,968, and the
               $         is included within this amount; the results of our testing
               included two instances of missing subcontractor timesheets
       85     The sample included one invoice that totaled $98,033, and the
               $       is included within this amount; the results of our testing
               included two instances of missing subcontractor timesheets.
       89     The sample included one invoice that totaled $151,004, and the
               $         is included within this amount; the results of our testing
               included three instances of missing subcontractor timesheets
       90     The sample included one invoice that totaled $403,288, and the
               $       is included within this amount; the results of our testing
               included one instance where post differential per subcontractor
               invoice did not agree to the timesheet and eight instances of
               missing receipts for items over $75 as required by
               subcontractor agreement




                                                    65
                                                                                           APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                              Financial Audit of Costs Incurred under
                              Task Order No. 306-M-00-05-00515-00

                                Detailed Results for Finding 2013-2

                                              (Continued)


Subcontracts Questioned Costs (Continued)

Questioned costs related to Subcontracts:

    Sample                                                                            Questioned
    Number                                   Condition                                  Cost
      91      The sample included one invoice that totaled $204,090, and the
               $         is included within this amount; the results of our testing
               included four instances of missing receipts for items over $75 as
               required by subcontractor agreement, two instances of expense
               incurred in a period outside of the subcontractor invoice, and one
               instance where the per diem was not individually detailed as
               required by the subcontractor agreement
       92     The sample included two invoices that totaled $559,916, and the
               $         is included within this amount; the results of our testing
               included missing subcontractor timesheets, missing receipts for
               items over $75 as required by subcontractor agreement, and
               the allowances were not individually detailed as required by the
               subcontractor agreement
       93     The sample included two invoices that totaled $559,916, and the
               $           is included within this amount; the results of our
               testing included missing subcontractor timesheets
       94     The sample included one invoice that totaled $206,647, and the
               $           is included within this amount; the results of our
               testing included missing subcontractor timesheets
                 Total questioned costs related to subcontracts                        $


Implementation Funds Questioned Costs

Questioned costs related to implementation funds:

    Sample                                                                            Questioned
    Number                                Condition                                     Cost
      3       No supporting documentation was provided                                $
      4       The sample included one invoice that totaled $        ; the results
               of our testing included missing required documents as stated
               within the ACC/LBCC Subcontract Section 8.4
       17     The sample included one invoice that totaled $        ; the results
               of our testing included one instance where the payment was not
               made in accordance with the terms and conditions of the
               invoice by the check being written to an individual and not a
               vendor




                                                   66
                                                                                     APPENDIX B
                         DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                              Detailed Results for Finding 2013-2

                                            (Continued)


Implementation Funds Questioned Costs (Continued)

Questioned costs related to implementation funds:

    Sample                                                                        Questioned
    Number                                 Condition                                Cost
      18     The sample included one invoice that totaled $            ; the
              results of our testing included one instance where the payment
              was not made in accordance with the terms and conditions of
              the invoice by the check being written to an individual and not a
              vendor
       20    The sample included one invoice that totaled $            ; the
              results of our testing included one instance where the payment
              was not made in accordance with the terms and conditions of
              the invoice by the check being written to an individual and not a
              vendor
       96    The sample did not include any invoices; the results of our
              testing included that the amount billed to USAID was not fully
              supported, missing invoice, and one instance where the
              payment was not made in accordance with the terms and
              conditions of the invoice by the check being written to an
              individual and not a vendor
      418    The sample did not include any invoices; the results of our
              testing included that the amount billed to USAID was not fully
              supported, missing invoice, and one instance where the
              payment was not made in accordance with the terms and
              conditions of the invoice by the check being written to an
              individual and not a vendor
      534    No supporting documentation was provided
      641    The sample did not include any invoices; the results of our
              testing included that the amount billed to USAID was not fully
              supported, missing invoice, and missing payment support
      717    The sample included eighteen invoices that totaled $2,463, and
              the $      is included within this amount; the results of our
              testing included missing payment support and eighteen
              instances of a missing rental agreement
      841    The sample did not include any invoices; the results of our
              testing included that the amount billed to USAID was not fully
              supported, missing invoice, and one instance where the
              payment was not made in accordance with the terms and
              conditions of the invoice by the check being written to an
              individual and not a vendor
      863    The sample included eight invoices that totaled $280, and the
              $     is included within this amount; the results of our testing
              included missing Request For Payment Form, five instances of
              a missing rental agreement



                                                 67
                                                                                            APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                              Financial Audit of Costs Incurred under
                              Task Order No. 306-M-00-05-00515-00

                                Detailed Results for Finding 2013-2

                                               (Continued)


Implementation Funds Questioned Costs (Continued)

Questioned costs related to implementation funds (Continued):

    Sample                                                                               Questioned
    Number                                   Condition                                     Cost
     1015    The sample included one invoice that totaled $1,549, which is
               broken out into two different transactions within the General
               Ledger; the $       is included within this amount. The results of
               our testing included missing payment support.
      1170   The sample included only one invoice that totaled $          ; the
               results of our testing included one instance where the individual
               who received payment was not the same as the individual who
               signed the rental agreement and one instance where
               supporting documentation was not translated
      1241   The sample included only one invoice that totaled $              ; the
             results of our testing included one instance where the invoice
             was not translated
      1265   The sample included one invoice that totaled $14,576, which is
               broken out into two different transactions within the General
               Ledger, and the $        is included within this amount; the results
               of our testing included one instance where the payment was not
               made in accordance with the terms and conditions of the
               invoice by the check being written to an individual and not a
               vendor
      1283   No supporting documentation was provided
      1399   The sample included seventeen invoices that totaled $               ; the
               results of our testing included the advance was not liquidated
               within the 72 hour timeframe as required by DAI’s Finance
               Manual
      1533   The sample did not include any invoices; the results of our
               testing included that the amount billed to USAID was not fully
               supported, missing invoice, and one instance where the
               payment was not made in accordance with the terms and
               conditions of the invoice by the check being written to an
               individual and not a vendor
      1590   No supporting documentation was provided
      1860   The sample did not include any invoices; the results of our
               testing included that the amount billed to USAID was not fully
               supported, missing invoice, and missing payment support
      1936   The sample included twenty-three invoices that totaled $1,807,
               which is broken out into three different transactions within the
               General Ledger, and the $         is included within this amount;
               the results of our testing included missing Request For
               Payment Form and twenty-three instances of missing Vehicle
               Agreement Forms



                                                     68
                                                                                        APPENDIX B
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                               Detailed Results for Finding 2013-2

                                             (Continued)


Implementation Funds Questioned Costs (Continued)

Questioned costs related to implementation funds (Continued):

    Sample                                                                           Questioned
    Number                                  Condition                                  Cost
     2002    The sample included transportation for 60 individuals that totaled
              $83,700, and the $          is included within this amount; the
              results of our testing included twenty-three instances of missing
              Vehicle Agreement Forms
      2167   The sample included one invoice that totaled $2,924, which is
              broken out into two different transactions within the General
              Ledger, and the $         is included within this amount; the
              results of our testing included one instance where the payment
              was not made in accordance with the terms and conditions of
              the invoice by the check being written to an individual and not a
              vendor
      2217   The sample included only one invoice that totaled $             ; the
              results of our testing included one instance where the individual
              who received payment was not the same as the individual who
              signed the rental agreement
      2286   The sample included only one invoice that totaled $          ; the
              results of our testing included missing Advance Request Form
              and missing supporting documentation for travel
      2343   No supporting documentation was provided
      2574   The sample did not include any invoices; the results of our
              testing included that the amount billed to USAID was not fully
              supported, missing invoice, and one instance where the
              payment was not made in accordance with the terms and
              conditions of the invoice by the check being written to an
              individual and not a vendor
      2643   The sample included thirty-four invoices that totaled $123,250,
              which is broken out into three different transactions within the
              General Ledger, and the $            is included within this amount;
              the results of our testing included missing Request For
              Payment Form and thirty-four instances of missing Vehicle
              Agreement Forms
      2772   The sample did not include any invoices; the results of our
              testing included that the amount billed to USAID was not fully
              supported, missing invoice, and one instance where the
              payment was not made in accordance with the terms and
              conditions of the invoice by the check being written to an
              individual and not a vendor




                                                   69
                                                                                          APPENDIX B
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                                Detailed Results for Finding 2013-2

                                              (Continued)


Implementation Funds Questioned Costs (Continued)

Questioned costs related to implementation funds (Continued):

    Sample                                                                             Questioned
    Number                                  Condition                                    Cost
     2892    The sample included only one invoice that totaled $             ; the
              results of our testing included one instance where the Request
              For Payment Form date was before the Vehicle Payment Sheet
              date
      2999   The sample included one invoice that totaled $           ; the results
              of our testing included one instance where the invoice did not
              have a date listed and one instance where the payment was not
              made in accordance with the terms and conditions of the
              invoice by the check being written to an individual and not a
              vendor
      3181   The sample included two invoices that totaled $           ; the results
              of our testing included two instances where the invoices did not
              have the dates listed and one instance where the payment was
              not made in accordance with the terms and conditions of the
              invoice by the check being written to an individual and not a
              vendor
      3248   The sample included one invoice that totaled $10,079, which is
              broken out into two different transactions within the General
              Ledger, and the $          is included within this amount; the
              results of our testing included one instance where the payment
              was not made in accordance with the terms and conditions of
              the invoice by the check being written to an individual and not a
              vendor
      3317   The sample included transportation for five individuals that
              totaled $    ; the results of our testing included missing
              payment support
      3389   The sample included transportation for twenty-two individuals
              that totaled $       ; the results of our testing included missing
              payment support
      3603   The sample included transportation for twenty-one individuals
              that totaled $2,847, which is broken out into three different
              transactions within the General Ledger, and the $           is
              included within this amount; the results of our testing included
              missing payment support
      3670   The sample included one invoice that totaled $           ; the results
              of our testing included one instance where the fingerprint of the
              vehicle owner per the Vehicle Payment Sheet did not match the
              Rental Agreement




                                                   70
                                                                                        APPENDIX B
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                               Detailed Results for Finding 2013-2

                                             (Continued)


Implementation Funds Questioned Costs (Continued)

Questioned costs related to implementation funds (Continued):

    Sample                                                                           Questioned
    Number                                  Condition                                  Cost
     3692    The sample did not include any invoices; the results of our
              testing included that the amount billed to USAID was not fully
              supported, missing invoice, and missing payment support
      4192   The sample included two invoices that totaled $        ; the results
              of our testing included missing payment support
      4337   The sample included one invoice that totaled $2,339, which is
              broken out into two different transactions within the General
              Ledger, and the $          is included within this amount; the
              results of our testing included missing payment support
      4414   The sample included only one invoice that totaled $            ; the
              results of our testing included missing Request For Payment
              Form
      4512   The sample did not include any invoices; the results of our
              testing included that the amount billed to USAID was not fully
              supported, missing invoice, and one instance where the
              payment was not made in accordance with the terms and
              conditions of the invoice by the check being written to an
              individual and not a vendor
      4517   The sample included transportation costs for nine individuals that
              totaled $1,769, which is broken out into three different
              transactions within the General Ledger, and the $          is
              included within this amount; the results of our testing included
              missing payment support
      4694   The sample included one invoice that totaled $1,689, which is
              broken out into two different transactions within the General
              Ledger, and the $        is included within this amount; the results
              of our testing included missing payment support
      4753   The sample included transportation costs for two individuals that
              totaled $    ; the results of our testing included two instances
              where the days traveled per the Vehicle Payment Sheet did not
              match the days traveled per the Travel Request Form
      4904   The sample included two invoices that totaled $            ; the
              results of our testing included one instance where the payment
              was not made in accordance with the terms and conditions of
              the invoice by the check being written to an individual and not a
              vendor




                                                   71
                                                                                       APPENDIX B
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                               Detailed Results for Finding 2013-2

                                            (Continued)


Implementation Funds Questioned Costs (Continued)

Questioned costs related to implementation funds (Continued):

    Sample                                                                          Questioned
    Number                               Condition                                    Cost
     5079    This sample included one invoice that totaled $       ; the results
              of our testing included one instance where the payment was not
              made in accordance with the terms and conditions of the
              invoice by the check being written to an individual and not a
              vendor
      5285   The sample did not include any invoices; the results of our
              testing included that the amount billed to USAID was not fully
              supported, missing invoice, and one instance where the
              payment was not made in accordance with the terms and
              conditions of the invoice by the check being written to an
              individual and not a vendor
      5551   The sample did not include any invoices; the results of our
              testing included that the amount billed to USAID was not fully
              supported, missing invoice, and one instance where the
              payment was not made in accordance with the terms and
              conditions of the invoice by the check being written to an
              individual and not a vendor
      5806   No supporting documentation was provided
      5864   The sample included one invoice that totaled $         ; the results
              of our testing included one instance where the payment was not
              made in accordance with the terms and conditions of the
              invoice by the check being written to an individual and not a
              vendor and one instance where the invoice did not have the
              date listed
      6120   No supporting documentation was provided
      6284   No supporting documentation was provided
      6485   No supporting documentation was provided
      6635   No supporting documentation was provided
      6748   No supporting documentation was provided
      7285   The sample included one invoice that totaled $         ; the results
              of our testing included one instance where the payment was not
              made in accordance with the terms and conditions of the
              invoice by the check being written to an individual and not a
              vendor and one instance where the invoice did not have the
              date listed
      7597   The sample included one invoice that totaled $       ; the results
              of our testing included missing voucher and missing payment
              support




                                                  72
                                                                                        APPENDIX B
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                               Detailed Results for Finding 2013-2

                                             (Continued)


Implementation Funds Questioned Costs (Continued)

Questioned costs related to implementation funds (Continued):

    Sample                                                                           Questioned
    Number                                  Condition                                  Cost
     7865    The sample included one invoice that totaled $5,939, which is
              broken out into two different transactions within the General
              Ledger, and the $         is included within this amount; the
              results of our testing included one instance where the payment
              was not made in accordance with the terms and conditions of
              the invoice by the check being written to an individual and not a
              vendor
      8098   This sample included one invoice that totaled $            ; the
              results of our testing included one instance where the payment
              was not made in accordance with the terms and conditions of
              the invoice by the check being written to an individual and not a
              vendor, one instance where the invoice did not have the date
              listed, and one instance where the invoice was not translated
      8326   The sample included one invoice that totaled $          ; the results
              of our testing included three instances of missing quotes as
              required by DAI's Finance Manual and the advance was not
              liquidated within the 72 hour timeframe as required by DAI’s
              Finance Manual
      8537   The sample included one invoice that totaled $14,428, which is
              broken out into two different transactions within the General
              Ledger, and the $           is included within this amount; the
              results of our testing included missing payment support
      8671   The sample did not include any invoices; the results of our
              testing included that the amount billed to USAID was not fully
              supported, missing invoice, and one instance where the
              payment was not made in accordance with the terms and
              conditions of the invoice by the check being written to an
              individual and not a vendor
      8976   The sample included one invoice that totaled $          ; the results
              of our testing included one instance where the payment was not
              made in accordance with the terms and conditions of the
              invoice by the check being written to an individual and not a
              vendor and one instance where the invoice date was before the
              Goods Delivery Receipt date
      9041   The sample included one invoice that totaled $          ; the results
              of our testing included one instance where the payment was not
              made in accordance with the terms and conditions of the
              invoice by the check being written to an individual and not a
              vendor




                                                  73
                                                                                       APPENDIX B
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                               Detailed Results for Finding 2013-2

                                            (Continued)


Implementation Funds Questioned Costs (Continued)

Questioned costs related to implementation funds (Continued):

    Sample                                                                          Questioned
    Number                                Condition                                   Cost
     9201    The sample included two invoices that totaled $ ; the results of
              our testing included missing Request For Payment Form,
              missing payment support, and two instances where the invoices
              did not have the dates listed
      9456   The sample included one invoice that totaled $         ; the results
              of our testing included one instance where the invoice was not
              translated and one instance where the payment was not made
              in accordance with the terms and conditions of the invoice by
              the check being written to an individual and not a vendor
      9592   The sample included one invoice that totaled $         ; the results
              of our testing included one instance where the payment was not
              made in accordance with the terms and conditions of the
              invoice by the check being written to an individual and not a
              vendor and one instance where the unit price was not listed on
              the invoice
      9777   The sample included one invoice that totaled $     ; the results of
              our testing included missing Vehicle Payment Form
      9920   The sample did not include any invoices; the results of our
              testing included that the amount billed to USAID was not fully
              supported, missing invoice, and one instance where the
              payment was not made in accordance with the terms and
              conditions of the invoice by the check being written to an
              individual and not a vendor
     10144   The sample did not include any invoices; the results of our
              testing included that the amount billed to USAID was not fully
              supported, missing invoice, and one instance where the
              payment was not made in accordance with the terms and
              conditions of the invoice by the check being written to an
              individual and not a vendor
     10284   The sample did not include any invoices; the results of our
              testing included that the amount billed to USAID was not fully
              supported, missing invoice, and one instance where the
              payment was not made in accordance with the terms and
              conditions of the invoice by the check being written to an
              individual and not a vendor
     10464   The sample included one invoice that totaled $         ; the results
              of our testing included one instance where the payment was not
              made in accordance with the terms and conditions of the
              invoice by the check being written to an individual and not a
              vendor



                                                  74
                                                                                         APPENDIX B
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                               Detailed Results for Finding 2013-2

                                             (Continued)


Implementation Funds Questioned Costs (Continued)

Questioned costs related to implementation funds (Continued):

    Sample                                                                            Questioned
    Number                                Condition                                     Cost
     10577   The sample included one invoice that totaled $         ; the results
              of our testing included one instance where the payment was not
              made in accordance with the terms and conditions of the
              invoice by the check being written to an individual and not a
              vendor
     10585   The sample included 74 travel vouchers that totaled $3,448,
              which is broken out into four different transactions in the
              General Ledger, and the $        is within this amount; the results
              of our testing included one instance of a missing timesheet,
              twenty-six instances where the timesheets were not translated,
              twenty-two instances where no approval was obtained on the
              timesheets, four instances where the timesheets did not
              correlate to the days listed on the travel voucher, and three
              instances where the hours could not be substantiated due to
              illegible copies
     10768   The sample included one invoice that totaled $           ; the results
              of our testing included one instance where the invoice was not
              translated, one instance where the payment was not made in
              accordance with the terms and conditions of the invoice by the
              check being written to an individual and not a vendor, and one
              instance where the invoice did not have the date listed
     10914   The sample included two invoices that totaled $      ; the results
              of our testing included missing Request For Payment Form,
              missing payment support, one instance where no third party
              invoice was obtained, and one instance where the invoice did
              not have the date listed
     11057   The sample included one invoice that totaled $           ; the results
              of our testing included one instance where the invoice was not
              translated and one instance where the payment was not made
              in accordance with the terms and conditions of the invoice by
              the check being written to an individual and not a vendor
     11147   The sample did not include any invoices; the results of our
              testing included that the amount billed to USAID was not fully
              supported, missing invoice, and one instance where the
              payment was not made in accordance with the terms and
              conditions of the invoice by the check being written to an
              individual and not a vendor




                                                   75
                                                                                         APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                              Financial Audit of Costs Incurred under
                              Task Order No. 306-M-00-05-00515-00

                                Detailed Results for Finding 2013-2

                                              (Continued)


Implementation Funds Questioned Costs (Continued)

Questioned costs related to implementation funds (Continued):

    Sample                                                                            Questioned
    Number                                  Condition                                   Cost
     11265    The sample included one invoice that totaled $        ; the results
               of our testing included one instance where the payment was not
               made in accordance with the terms and conditions of the
               invoice by the check being written to an individual and not a
               vendor
    Line 14   The sample included two invoices that totaled $     ; the results
               of our testing included two instances where no third party
               invoice was obtained
    Line 16   The sample included one invoice that totaled $        ; the results
               of our testing included the advance was not liquidated within
               the 72 hour timeframe as required by DAI’s Finance Manual
               and missing Purchase Request Form
    Line 18   The sample included only one invoice that totaled $        ; the
               results of our testing included the advance was not liquidated
               within the 72 hour timeframe as required by DAI’s Finance
               Manual and one instance where no third party invoice was
               obtained
    Line 19   No supporting documentation was provided
    Line 21   The sample included one invoice that totaled $     ; the results of
               our testing included the advance was no liquidated within the
               72 hour timeframe as required by DAI’s Finance Manual and no
               third party invoice was obtained
    Line 21   The sample included one invoice that totaled $          ; the results
               of our testing included one instance where invoice was not
               translated and one instance where the payment was not made
               in accordance with the terms and conditions of the invoice by
               the check being written to an individual and not a vendor
    Line 22   The sample included one invoice that totaled $     ; the results of
               our testing included the advance was no liquidated within the
               72 hour timeframe as required by DAI’s Finance Manual and no
               third party invoice was obtained
    Line 22   The sample included one invoice that totaled $          ; the results
               of our testing included one instance where invoice was not
               translated and one instance where the payment was not made
               in accordance with the terms and conditions of the invoice by
               the check being written to an individual and not a vendor




                                                   76
                                                                                              APPENDIX B
                           DEVELOPMENT ALTERNATIVES, INC.

                               Financial Audit of Costs Incurred under
                               Task Order No. 306-M-00-05-00515-00

                                 Detailed Results for Finding 2013-2

                                               (Continued)


Implementation Funds Questioned Costs (Continued)

Questioned costs related to implementation funds (Continued):

    Sample                                                                               Questioned
    Number                                   Condition                                     Cost
    Line 23   The sample included one invoice that totaled $        ; the results of
               our testing included the advance was no liquidated within the
               72 hour timeframe as required by DAI’s Finance Manual and no
               third party invoice was obtained
    Line 23   The sample included one invoice that totaled $             ; the results
               of our testing included missing proof of payment
    Line 25   The sample included twelve invoices that totaled $          ; the
               results of our testing included missing Request For Payment
               Form, missing Purchase Request Form, missing Goods
               Delivery Receipt Form, four instances where the purpose of the
               transaction was not clearly identified, and one instance where
               the item purchased was not classified within the appropriate
               expenditure type
    Line 25   The sample included one invoice that totaled $             ; the results
               of our testing included one instance where the payment was not
               made in accordance with the terms and conditions of the
               invoice by the check being written to an individual and not a
               vendor
    Line 26   No supporting documentation was provided
    Line 27   The sample included one invoice that totaled $             ; the results
               of our testing included one instance where the invoice was not
               translated and one instance where the payment was not made
               in accordance with the terms and conditions of the invoice by
               the check being written to an individual and not a vendor
    Line 28   The sample included one invoice that totaled $        ; the results of
               our testing included missing Request For Payment Form
    Line 32   The sample included one invoice that totaled $66,177, which is
               broken out into six different transactions within the General
               Ledger, and the $           is included within this amount; the
               results of our testing included no Purchase Order was provided
               to show approval prior to purchase
    Line 35   The sample included one invoice that totaled $           ; the results
               of our testing included one instance where the payment was not
               made in accordance with the terms and conditions of the
               invoice by the check being written to an individual and not a
               vendor

                Total questioned costs related to Implementation Funds                    $




                                                     77
                                                                                APPENDIX C
                         DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                                  DAI Response to Findings

                      For the Period February 15, 2005 to June 30, 2009


Included on the following pages is DAI’s response received to the findings identified in this
report. In addition to the narrative response, DAI provided documentation that, in its opinion,
supports its position on various findings. Due to the voluminous and proprietary nature of this
documentation, it has not been included within this report. The documentation has been
provided to SIGAR under separate cover.




                                              78
                                                                                     APPENDIX C




2013-1: Identical Fingerprints and/or Signatures Identified on Cash-for-Work Programs
and Temporary Consultant Costs

DAI Response:

       DAI appreciates the opportunity to present our response to the draft audit findings that
       MHM has indicated were already approved by SIGAR without DAI input or comment.
       While we encourage and support efforts by SIGAR to identify waste, fraud and abuse in
       Afghanistan, we also strongly believe that any SIGAR audit be conducted in a fair and
       transparent manner according to Generally Accepted Government Auditing regulations
       and relevant legal standards. We firmly believe that these standards were not met in the
       audit. DAI feels strongly that materials provided as part of the audit fieldwork and
       information included in this report will show that DAI established and implemented
       compliant, effective and appropriate policies and procedures that demonstrate that
       USAID funds were used for intended purposes, that the goods and services were
       actually and appropriately procured at a reasonable cost in accordance with our contract
       with USAID and the questioning of DAI costs is not warranted.

       In addition, DAI procedures and accounting practices have been reviewed, evaluated
       and confirmed by independent parties during multiple previous audits of this program,
       including the Regional Inspector General Audit, GAO oversight, IRD independent
       assessments and USAID reviews. In USAID's official Contractors Performance Report
       ("CPR") for this project, DAI earned a rating of 5 out of 5 on all areas of the program
       which is the highest score that can be awarded by USAID. The following is a direct
       quote from the CPR report:

               "The contractor financial management, accounting systems and cost
               controls are as they should be for the program devoid of issues, fully
               responsive, timely and accurate just what program management and
               USAID oversight requires guiding an innovative development initiative in
               an extremely dangerous and difficult working environment." (p4 of USAID
               CPR report)

       DAI also feels that the timeline for this audit did not adequately allow for the level of
       planned testing resulting in an inadequate basis for audit conclusions. Key examples
       include:

           •   As part of the audit, MHM requested supporting documentation for the final list of
               over 577 transactions plus multiple follow up requests 3 days before they were
               scheduled to begin their fieldwork. The size and timing of this request made it
               very difficult to retrieve relevant documentation from Afghanistan and our offsite
               storage and has been a significant strain on DAI resources. Due to the volume
               of material requested the audit plan did not allow for adequate time for auditor
               review and follow up.




                                                 79
                                                                           APPENDIX C




   •   Because of the size of the sample and the short time frame provided for the audit
       it appears that significant amounts of relevant materials were not taken into
       consideration before issuing their report. DAI has numerous examples of
       supporting documentation provided that was not considered.

   •   At the exit conference on 4/4/13, MHM provided a preliminary list of remaining
       issues. Subsequent to the exit conference MHM continued to make new inquires
       and DAI provided additional materials that we understood would resolve all
       questions. We had no further communication from MHM advising us that our
       answers did not resolve open questions until we received the draft audit report
       approved by SIGAR on 6/11/13. This made it impossible for DAI to prepare a
       response in advance because we did not know that any findings remained until
       we received the report. This is why DAI feels strongly that the 7 day deadline for
       our response to a 70+ page audit report was not reasonable and if we had
       additional time to prepare it would allow us to provide a more through response.

Materials previously provided our response and attachments conclusively show that
MHM's basis for questioning costs is not based on objective, Government Auditing
Standards and are biased due to SIGAR inputs and approval of findings without the
benefit of DAI 's response.

Cash for Work Program ("CFW") - A key audit finding questions 100% of the Work for
Hire costs in the amount of $15.9M.

   •   As part of the CFW program, the auditor asserts that identical fingerprints and/or
       signatures were identified and uses this as a basis to question 100% of the CFW
       costs. There is a preponderance of 3rd party evidence demonstrating that
       quantifiable and verifiable physical work was performed and completed and it is
       highly unlikely that all of these projects were performed by the same individual.
       In our response below DAI provides detailed explanations on legitimate situations
       that would explain why some signatures would be the same and that this is not
       an adequate basis for questioning the entire program.

   •   The auditor asserts that there was a lack of adherence to procurement
       procedures. The primary basis for this reflects that payments were issued to
       individuals and not vendors, that the invoices for materials and services are not
       translated or that the invoice is not dated. No consideration is made that the
       documentation provided reflects that the payee is either the proprietor of the
       company who has legal authority to receive the payment or delegate and that it is
       not unusual in Afghanistan for an owner to receive payment for his company. In
       addition the majority of DAI project staff are fluent in the local dialect and the
       ability to translate documentation as needed was never a challenge. Also no




                                         80
                                                                                    APPENDIX C




             consideration is made that relevant supporting documentation demonstrates
             reasonability, allowability and allocability of the costs as required by FAR.

         •   MHMs report indicates that the location for approximately 1/3 of the CFW
             projects could not be located on Google Maps even though each project code is
             indexed to a USG provided location code.

      DAI provides the detailed responses to each of the auditor's reported findings below. A
      number of Attachments are included that demonstrate the adequacy and
      appropriateness of the billed costs. We look forward to further discussions related to the
      appropriateness of the ADP project costs.

Background of the Cash for Work Program:

      The purpose of the Cash for Work Program was to engage members of the community
      in performing discrete, quantifiable and verifiable infrastructure works for the community.
      The selection of the infrastructure activities financed by the contract served to address
      the explicit needs identified by the District and Provincial Development Shuras,
      prioritized by the Provincial Development Committee and which aligned with USAID
      strategic priorities. The PDC was composed of the Governor's Office and the Directors
      of the principal line Ministries in the Province- RRD, Agriculture, Public Works,
      Irrigation, Women's Affairs, as well as the PRT, USAID and project representatives. The
      majority of this effort was performed in remote villages in wartime conditions.

      Before initiating CFW activities, the project management team engaged the community
      through the Shuras, a designated project engineer and USAID with identifying the
      specific infrastructure projects to perform. The infrastructure works included laying
      cobblestones, gravel for drainage, roads, irrigation canal repair and other similar types of
      works. The Shuras identified members of the community who would benefit from doing
      such work and who had the required skills. Depending on the size of the infrastructure
      activity, the project designated one or two site engineers to oversee the activity on a
      daily basis. A supervisory engineer was also designated and was required to visit the
      site regularly and reported the progress to senior project management on a weekly
      basis. On a bi-weekly basis reports documenting the progress were submitted to USAID.

      A key contractual requirement, reflected in the PMP, was the number of jobs created
      and the progress of each CFW activity. USAID initiated a number of independent
      evaluations where the overall conduct of the project was considered and USAID staff
      themselves visited a number of the CFW projects to evaluate progress and to confirm
      that local community laborers were engaged. The Afghan provincial, district and local
      officials and other U.S Officials were kept fully informed of CFW projects in their area
      and also provided continuing oversight and feedback.

      Because most of the workers were illiterate and did not carry ID cards timesheets for
      work performed were signed with thumb prints.

      DAI strongly disagrees with the auditor's questioning the full amount of the labor and
      consulting costs associated with the Cash for Work ("CFW") program for the following
      reasons:




                                                81
                                                                              APPENDIX C




1. The ADP program included significant 3rd party oversight - DAI further asserts that
   ADP's CFW program, overall management and processes were reviewed and witnessed
   independently by a number of external parties including:

      •   General Accounting Office - GAO conducted a review of the Transport Sector
          Projects in Afghanistan and issued a report on October 31, 2007. This report
          includes a review of the CFW DAI activities and confirms that these were
          completed. Please refer to Attachment DAI-1.

      •   Regional Inspector General - The RIG's Final Audit Report (2006) noted that
          USAID/Afghanistan staff conducted 56 monitoring visits to ALP/E sites from
          August 2005 to October 2006. The mission response noted an additional 17
          documented site monitoring visits by USAID staff between Sept. 2006 and Feb.
          2007.

      •   USAID, including the Contracting Officer, Contracting Officers Representative
          and US Ambassador - USAID reported on DAI's Contractor Performance Report
          (CPR) scores of 5 of 5 the highest scores achievable and that:

                  the contractor succeeded in encouragement an ethic of
                  11


                 accountability and responsiveness among local as well as
                 expatriate, all contributed significantly to program sustainability of
                 results and overall performance" .

                 Specifically for Cost Control, 11financial management, accounting
                 systems and cost control are as they should be program (sic]
                 devoid of issues, responsive, and accurate just what the program
                 management and USAID oversight requires".

          IRD 3rd party Project reviews and assessment's- USAID contracted with
          IRD, an independent expert to review projects under the ADP program. Copies
          of their reports are included as Attachment DAI-2

          The results of such reviews and site visits all concluded that DAI' processes and
          procedures were adequate and compliant.
          The degree to which the entire transaction costs are questioned does not
          represent a balanced or appropriate approach given demonstrated achievement
          of deliverables.

                       o   Attachment DAI-1 shows the specific transactions and questions
                           were raised
                       o   Attachment DAI-2 includes 3rd party evidence demonstrating the
                           achievements of the CFW program.


2. MHM does not have an adequate basis to Question 100% of the CFW costs -
   Management strongly disagrees with the auditor's conclusion questioning the full amount
   of the CFW costs. There is no apparent argument offered by the auditor that the
   intended work and deliverables under CFW was not achieved, rather they place




                                            82
                                                                               APPENDIX C




   complete reliance on a few sampled transactions in an attempt to discredit associated
   costs and DAI 's processes by pointing to a discreet number of laborer fingerprints they
   claim to be identical. The auditor asserts that based on their review of a discreet number
   of fingerprints that all fingerprints in the program appear to be identical even though
   significant work was accomplished. This is an incorrect assumption and not all
   fingerprints are identical and as described below there are legitimate reasons why some
   fingerprints would be identical. Therefore management concludes that the
   recommendations are inappropriate as they are not factually based.


3. DAI's Payment Process was compliant and included proper internal controls - The
   process for payment distribution was as follows:

      •   Due to security conditions, DAI staff were not able to pre-schedule paydays.
      •   One of two DAI Site Engineers, who was responsible for overseeing daily
          operations initiated a payment request based on completed and certified
          attendance sheets.
      •   The request was submitted to DAI 's designated Senior Engineer, who was
          responsible for providing oversight at the site on a regular basis.
      •   After a thorough review by the technical team, including the Senior Engineer, and
          after approval, the request was submitted to the COP for a final review.
      •   Once reviewed and approved, the request was submitted to DAI 's Finance
          Department for processing.
      •   The Finance Staff prepared requests for payment based on this information. The
          CFW accountant was responsible for preparing the pay-sheets which identified
          the each individual laborer based on the certified attendance sheets.
      •   Once the requests for payment were prepared, approved and processed, DAI's
          Field Accountant was responsible for visiting the site to disburse payments to the
          laborers.
      •   These payments were always made in a public arena to foster the transparency
          of the process are were witnessed by the site engineer, team leader. laborers
          and community leaders.
      •   Given the above controls, we permitted either the Shura or the laborer's
          representative to accept payment on their behalf when the laborer himself was
          not present to collect his earned pay.

   Because paydays were not announced in advance, there were instances when laborers
   could not be present to receive their pay for work performed. In these instances village
   elders would typically receive the payment on the laborers behalf.

   We maintain that conducting the payment process in this public setting achieved
   effective collaboration and precluded individuals from accepting payments that were not
   earned or skimming from payments collected on behalf of their fellow community laborer.

   As noted above. numerous visits to the various sites were conducted by external
   and independent parties. An additional level of oversight was provided by the
   project's M&E team that conducted unannounced site visits to conduct
   inspections as well. DAI Management also visited these sites periodically. In
   short, numerous opportunities were presented for anyone involved in the program
   to challenge the payments and/or the related process. DAI has never been made




                                            83
                                                                                APPENDIX C




   aware of any instance where the intended payee did not receive their payment or
   that there was any form of collusion, kick-back, skimming or similar.


4. The Number of Days Worked is Equal to the Number of Days Paid - Per MHM
   "Time sheets used for proof of payment did not match the number of days paid." .

       •   DAI reviewed the transactions in question and confirms that the number of days
           paid in fact agree with the number of days paid. Please refer to Attachment DAI-
           1.

5. APD Programs location codes were based upon USG Map Coordinates - Per MHM
   "The location where the CFW program took place could not be identified. The total of
   these exceptions accounted for approximately 32% and 34% of the samples we tested"

       •   Each CFW activity was assigned a unique identification number which represents
           the Province, District and activity sequence number. For example, project
                                           =                          =
           number 081607 represents, 08 Nangarhar Province, 16 Goshta District and
              =
           07 the 7th activity in this province and district. The province and district
           identification numbers were consistently used by the US Military, Afghanistan
           Government and the US Government. DAI is not aware of any other 3rd party
           monitors other than MHM indicating that a project could not be found. In addition
           it is unclear as to whether any of the MHM team ever performed any of their
           fieldwork inside Afghanistan.

       •   DAI responded to the auditor's inquiry that could not locate a CFW location,
           Katalam, Afghanistan. We clarified that the auditor's search of Google-Earth had
           incorrectly identified this site as Kot Alam, Pakistan. Please refer to Attachment
           DAI-3.


   The auditor further asserts that, "A lack of approval from the local Shura on the
   timesheets, receipt of payment forms that were not signed by two DAI employees, as
   required by DAI internal policies, to ensure adequate internal controls over safeguarding
   cash."

       •   A review of the documents questioned during the audit field-work demonstrates
           that the Shura's fingerprint is reflected on all related payments.

7. Costs related to Missing Advance Request and Liquidation forms were never
   billed to USAID- MHM "Missing Advance Request and Liquidation Forms which were
   required by OAf's policies."

       •   DAI has explained to the auditor that advances issued are funded by DAI and
           related expenses are only billed after these have been submitted, reviewed and
           approved.

8. DAI has conformed with 48 CFR principles - Specifically:




                                               84
                                                                              APPENDIX C




   •   DAI has accounted for all costs appropriately, maintained records, including
       support documentation, adequate to demonstrate that costs claimed have been
       incurred, are allocable to the contract and comply with the cost principles with
       this subpart and applicable agency supplements.

   •   DAI has maintained all records and other evidence sufficient to reflect properly all
       costs claimed to have been incurred directly in performance of this contract

DAI would like to address the auditor's determination of the "Cause" of the noted finding ;
specifically, that DAI noted that this condition occurred "due to difficulties in performing
adequate oversight in a hostile environment in Afghanistan ... ", DAI agrees that while the
environment was and remains difficult, all reasonable and effective measures were
taken to ensure compliance with the regulations and internal policies. Furthermore, if
the security circumstances changed at a particular project location to the point that
effective technical and financial oversight could not be maintained, the project was
suspended until conditions changed , or in extreme cases the project was terminated,

DAI further objects to the auditor's conclusion reflected under "Effect". We confirm that
accurate and reliable performance information was maintained and that related parties,
USAID Management and stakeholders were updated and informed accurately and in
significant details in a timely manner.




                                          85
                                                                                 APPENDIX C




2013-2: Lack of Adherence to Procurement Procedures

1. MHM asserts that OAf was unable to provide supporting documentation for Expat GSA
   labor, applicable fringe and overhead.

       DAI Response:

       DAI strongly disagrees with the auditor's conclusion that DAI did not adhere to
       established procurement procedures for the following reasons:

       DAI agrees that some of the original information requested for Expat labor which
       was recorded in our prior Deltek accounting system was not provided. This error
       on our part resu lted in part from receiving numerous sporadic audit requests
       during the audit field work and because the related period in 2005 corresponded
       to DAI's conversation from Deltek to the current Oracle accounting system in
       2005.

       The requested Expat labor details are included in Attachment DAI-4. DAI is
       willing to provide any additional documents upon request.

2. MHM draft report indicates that OAf was unable to provide supporting documentation for
   CCN labor and applicable fringe and overhead in the amount of$ 13, 182.

       DAI Response:

       The relevant documents are stored in Afghanistan and DAI is working with former
       employees in Afghanistan to identify and retrieve these documents from over 5
       years ago.

3. MHM identified that costs related to transportation and allowances are not adequately
   supported in the amount of $148,639.

       DAI Response:

       DAI believes the relevant documents are stored in Afghanistan and is working
       with former staff in Afghanistan to identify and retrieve these documents from
       over 5 years ago.

4 . MHM asserts that OOC costs claimed by OAf in the amount of $3. 8M have numerous
   exceptions.

       DAI Response:

          Payee is an Individual not a Vendor - DAI maintains that it is acceptable for
          individuals to receive payments as either owners or as the designated




                                               86
                                                                  APPENDIX C




representative of the company that submitted the invoice. Specifically MHM
questioned 23 transactions in the amount of $1,247,999 solely on th is basis.

DAI has reviewed the larger questioned items and believes that evidentiary
documentation supports the costs that were claimed. DAI determined that for
these 23 transactions there are no instances where payment terms or
conditions conflicted with information included in the invoice or other
supporting documentation and there are no restrictions, legal or regulatory,
from issuing payment to the owner of a company or his designee. Further, our
review of these transactions confirmed that most of the individuals who were
paid have their names and/or signatures reflected in the purchase
documents. DAI further confirms that this is a common practice in Afghanistan
given the legal restrictions around a company's ability to open a business
bank account. As a result many companies use personal accounts. Please
refer to Attachment DAI-5.

MHM questions 4 transactions with a total value of $906,641, where required
certification for fertilizer is missing and that payment was issued to an
individual and not a vendor. DAI re-confirms that the required supporting
documentation was provided to MHM during the field work and appears that
the auditor has failed to consider this information. This is one of many
instances where DAI produced large volumes of information in
response to excessive data requests, and the auditor did not
incorporate the information provided to resolve the questioned costs in
thei r report. Please refer to Attachment DAI-6 for the supporting
information that was previously provided to the auditor for these 4
transactions.

There are 4 additional instances, with an approximate va lue of $527k where
the auditor expresses concern related to the dates on the invoice or other
documents, and where payments are issued to individuals. DAI asserts that
relevant and fully executed documentation supports the transactions in
question. These documents include a fully executed Purchase Order,
Purchase Request Form, Goods Receipt Form and Transaction Voucher.

It is important to note that MHM does not question these costs on the basis of
a lack of appropriate documentation or evidence but concludes that all of the
related costs are questionable because the payment was made to an
individual and not in the name of the business.




                                  87
                                                                                       APPENDIX C




           DAI asserts that this is an unreasonable and unjustified conclusion. DAI
           affirms that the related transactions are allowable, reasonable, allocable and
           fully documented and that these costs were incurred to achieve the required
           deliverables.

5. As a justification for questioning costs, MHM has cited the fact that certain focally generated
   invoices were not translated.


       DAI Response:

       It is unclear from the draft report exactly how much was questioned on this basis.
       DAI asserts that this is not a requirement of the project and in fact USAID officials
       encouraged contracts to work in the local languages to further promote one of
       their key goals of capacity building. In addition, most members of DAI's financial
       management team, which was assigned responsib ility for review of all
       documentation, including local receipts, were bilingual so proper review and
       scrutiny of these invoices was not an issue. Further, local receipts are not
       documents prepared by the contractor, nor are these receipts communicated to
       the parties under this contract. All transactions were thoroughly reviewed by a
       number of authorized staff, including Finance, Procurement and Administration.

6. MHM has questioned subcontractor costs claiming that these costs were not supported by
   timesheets.

       DAI Response:

       DAI maintains that timesheets were in fact attached for 6 of the 9 samples
       reviewed by the auditor. Please refer to Attachment DAI-7. The remaining 3
       samples relate to subcontractors' corrected invoices. DAI is retrieving the original
       invoices submitted by the subcontractor, HMM, to wh ich the timesheets are
       attached and will submit these separately.

7. MHM asserts that Implementation Fund costs claimed by OAf have numerous exceptions
   which include that payment was issued to an individual and not a vendo" that local invoices
   are not translated, that some invoices are not dated, that advances to staff are not liquidated
   within the time prescribed in OAf's policy, that the costs are not fully supported.

       DAI Response:

       This finding is drafted in very general terms and it is very difficult for DAI to respond in a
       specific case by case manner.




                                                  88
                                                                              APPENDIX C




DAI reviewed the questioned samples and identified a total of 98 of these sampled
transactions totaling ~ Of these 27 samples totaling $796k are related to:
    • Payments to an individual and not a vendor
    • A date not being reflected on the local invoice,
    • Invoice not translated
    • Unit cost not reflected on the invoice.

DAI reiterates our objection to questioning costs on these grounds. As stipulated earlier,
many companies operate legally in Afghanistan using a personal bank account. There
are no restrictions or regulations precluding payment to the owner, director or a
designated individual. In the review of these samples, we confirm that a significant
number of payments that were issued to an individual, the name of the individual
correlates with the name reflected on the Purchase Order, related Joint Venture
Agreements, and/or other corporate documents. Please refer to Attachment DAI -8.

Secondly, we reassert that there are no requirements requiring DAI to translate local
invoices. Reflecting a date on an invoice is not within DAI 's control and is mitigated by
other documents that are reviewed as part of the process prior to payment.

Unit costs can be readily discerned and so questioning the cost on this premise does not
appear to be relevant.

The auditor challenges 7 samples totaling $5k because an advance issued to an
employee was not liquidated within a 72 hour time-frame established in the policy. As
explained earlier, advances issued to employees are not billed to USAID until adequate
documents are submitted , reviewed and approved. No inference is made by the auditor
that the expense billed to USAID is inadequately supported.

The auditor does not challenge the validity of the documentation supporting these
transactions, or as required by FAR for reasonableness. allowability or allocability of the
related costs. Rather they challenge the total cost because an individual was paid, a
date on an invoice is missing, the invoice isn't translated or because the unit cost is not
reflected . We find that the standards applied by the auditor appear to exceed standards
applied in the US. The fact of the matter is that the costs were incu rred for the purpose
of achieving contracted deliverables and the costs are adequately documented.




                                          89
                                                                                     APPENDIX C




2013-3: Inadequate Time Reporting Policy Resulting in Estimating Employee's Days
Worked

The auditor states that the necessary adjustments were never made to reflect the actual time
worked, if different. A reconciliation to adjust the estimated hours to actual was not provided.

       DAI Response:

       DAI acknowledges that the finance policy required all local staff timesheets to be
       submitted 3 working days preceding the last working day of the month. Our personnel
       policy reflected that timesheets were due at the end of the pay-period.

       DAI has explained that this requirement was caused by the need for finance staff to
       review and prepare related calculations, which included:
           • Verification of employment terms,
           • Pay-rates,
           • Tax withholding

       An example was provided demonstrating that the related payment date occurred either
       on the last day of the pay-period or early in the following month. As such, any/all
       required changes from the initial time-recording as relates to the last 3 days of the month
       were identified and adjusted accordingly. Any related changes were subsequently
       reviewed and adjustments for use of sick leave, annual leave or holiday leave were
       reflected on the employee's leave tracking records .

       All local national staff time-charges, including sick leave, annual leave and similar, were
       billed directly to the contract and not to a separate fringe account. As such , any/all
       required adjustments would have had NO impact to the billing under the contract. As
       noted above, such changes were reviewed to ensure that use of leave was reflected
       against the employee's available balance.

       We therefore maintain that this process was appropriate and had no effect on billed
       costs.

       DAI's Internal Audit Department recognized that this finance approach created an
       onerous review process and has worked with projects over the last few years to ensure
       that timesheets are submitted only after actual hours worked are recorded .




                                                  90
                                                                                     APPENDIX C




2013-4: Lack of Adequate Monitoring of Subcontractor

The auditor asserts that OAf did not have an adequate monitoring process for program costs
incurred and claimed by BearingPoint, one of its subcontractors.

       DAI Response:

       In 2005 DAI and BearingPoint entered into what is known as a Contractual Teaming
       Arrangement under the MOB IS/GSA, the vehicle under which the ALP contract was
       implemented. In order to enter into such an arrangement, each teaming partner had to
       hold a valid GSA Schedule (in this case MOBIS). The arrangement allowed each party
       to offer the rates on the other's schedule. In theory, this allowed each party to maintain
       confidentiality of contract with the Government. Under this arrangement each party
       billed USAID separately. BearingPoint submitted invoices directly to USAID.

       After considerable effort to make this payment arrangement work through USAID's
       Phoenix financial system, contract modification 10 directed DAI to subm it a single
       invoice for both parties. In all instances where BearingPoint invoices were submitted
       through DAI, the related documentation was provided by BearingPoint in a sealed
       envelope and forwarded as part of DAI's invoice submission. DAI was precluded an
       opportunity to review Bearing Point's detailed documentation ..

       BearingPoint's invoices were submitted in a manner consistent with AI DAR clause
       752.7003, entitled "Documentation for Payment." We note that the criteria referenced in
       the report, specifically 22 CFR 226, entitled "Administration of Assistance Awards to U.S.
       Non-Governmental Organizations, and ADS 540 entitled "USAID Development
       Experience Information," do not apply to contracts and contractors. Regulation 22 CFR
       226 is USAID implementation of OMB Circular A-110 which only applies to grants and
       cooperative agreements. The Automated Directive System (ADS) contains USAID's
       internal policies, which do not extend to contractors or recipients unless incorporated
       into the terms of the contract or award.

       Accordingly, the AIDAR clause, which is required in all USAID direct contracts, excluding
       fixed price contracts, requires the submission of an SF 1034 - Public Voucher for
       Purchases and Services Other Than Personal. The form provides space to report line
       items for services provided. The invoice must also include a certification, signed by an
       authorized representative of the firm, as follows:

         The undersigned hereby certifies to the best of my knowledge and belief that the fiscal
         report and any attachments have been prepared from the books and records of the
         Contractor in accordance with the terms of this contract and are correct: the sum
         claimed under this contract is proper and due, and all the costs of contract
         performance (except as herewith reported in writing) have been paid, or to the extent
         allowed under the applicable payment clause, will be paid currently by the Contractor
         when due in the ordinary course of business; the work reflected by these costs has
         been performed, and the quantities and amounts involved are consistent with the
         requirements of this Contract; all required Contracting Officer approvals have been
         obtained; and appropriate refund to USAID will be made promptly upon request in the
         event of disallowance of costs not reimbursable under the terms of this contract.




                                                 91
                                                                           APPENDIX C




Each invoice submitted by BearingPoint complied with these requirements. DAI then
conveyed the invoices to USAID with a statement that the work was performed.
Management therefore asserts that it is inappropriate to hold DAI responsible for related
supporting documentation and so challenges the auditor's recommendation to reimburse
the questioned costs reported.




                                         92
                                                                                   APPENDIX C




2013-5: Maintenance of Original Supporting

DAI Response:

       The auditor opines that original records and supporting documentation are required and
       applies Critera 22 CFR 226.53, Retention and access requirement for records is
       applicable: Financial records, supporting documents, statistical records, and all other
       records pertinent to an award shall be retained for a period of three years from the date
       of submission of the final expenditure report or, for awards that are renewed quarterly or
       annually, from the date of the submission of the quarterly or annual report as authorized
       by USA/D.

       DAI agrees that the records, supporting documentation and related records pertinent to
       the contract need to be maintained and asserts that such documents have been retained
       for this contract and provided to the auditor. We further assert that DAI maintains all
       required records as required by FAR 4.703, Policy on Contractor Record Retention
       applicable to contracts.

       The 22 CFR 226 assistance award provision referenced by the auditor:
       • Is not applicable to this contract. 22 CFR Is applicable to assistance awards.
       • There is no requirement in either FAR 4.703 or 22 CFR 226 for the contractor or
          grantee, respectively, to keep original documents as noted by the auditor.


              FAR Subpart 4.703, Policy on Contractor Records Retention
              (a) Except as stated in 4.703(b), contractors shall make available records,
              which includes books, documents, accounting procedures and practices,
              and other data, regardless of type and regardless of whether such items
              are in written form, in the form of computer data, or in any other form, and
              other supporting evidence to satisfy contract negotiation, administration,
              and audit requirements of the contracting agencies and the Comptroller
              General,
              (c) Nothing in this section shall be construed to preclude a contractor from
              duplicating or storing original records in electronic form unless they
              contain significant information not shown on the record copy. Original
              records need not be maintained or produced in an audit if the contractor or
              subcontractor provides photographic or electronic images of the original
              records and meets the following requirements:
                          1. The contractor or subcontractor has established procedures
                             to ensure that the imaging process preserves accurate
                             images of the original records, including signatures and
                             other written or graphic images, and that the imaging
                             process is reliable and secure so as to maintain the integrity
                             of the records .




                                                93
                                                                    APPENDIX C




                2. The contractor or subcontractor maintains an effective
                   indexing system to permit timely and convenient access to
                   the imaged records.
                3. The contractor or subcontractor retains the original records
                   for a minimum of one year after imaging to permit periodic
                   validation of the imaging systems.

DAI concludes that we complied with the required principles as the
documentation and records are maintained and were provided and so believes
no further action is requ ired.




                                    94
                                                                                APPENDIX D
                         DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                        Auditor’s Rebuttal to DAI Response to Findings

                      For the Period February 15, 2005 to June 30, 2009


DAI disagreed to each of the 5 findings presented in this report. We have reviewed their
management response and offer the following rebuttal for each finding.


2013-1: Identical Fingerprints and/or Signatures Identified on Cash-for-Work Programs
and Temporary Consultants Costs

In general, DAI disagreed with the finding as it believed that the majority of the documentation
provided during the audit had properly supported the costs incurred and that a reasonable
timeframe for DAI to provide all the supporting documentation tested was not allowed. However,
our recommendation remains unchanged for the following reasons:

   (1)   MHM requested a crosswalk between the General Ledger detail and the Fund
         Accountability Statement. Based upon DAI’s response, the general ledger detail was
         never maintained and was not available for the planning of this audit. Therefore,
         instead of assessing risk on the nine cost categories, risk was assessed on 149
         accounts within its Oracle system, and 78 accounts within its prior Deltek system.
         Although there were only 3 business days to pull the transactions, we did extend the
         timeframe of fieldwork to allow additional time to pull the requested sampled
         transactions. After multiple extensions provided, the final date to provide all
         information, including supporting documentation originally requested was March 29,
         2013. As such, DAI had in excess of nine weeks to provide all of the information
         requested. Any and all information and documentation provided prior to this date was
         reviewed and tested for inclusion within our report.

   (2)   Two days prior to the cutoff date for providing supporting documentation, DAI provided
         28 documents from the original request list. We audited these items and asked
         subsequent questions related to the documentation provided. The only other 2 items
         inquired from DAI were regarding the indirect cost rate and the timesheets related to
         Finding 2013-2. These inquiries were for further clarification to the findings in the
         report. No other inquiries were made. In addition, an exceptions list was provided to
         DAI at least every two to three days throughout fieldwork. Furthermore, a
         comprehensive list of exceptions was provided during the preliminary exit meeting on
         March 1, 2013. Another comprehensive list in a summarized format that corresponds
         to the findings was provided for the formal exit conference on April 4, 2013. DAI also
         provided a preliminary response to all exceptions noted during our testing prior to the
         exit conference. DAI had an adequate amount of time to provide a response to the
         finding.

   (3)   Although documentation was provided to show that the CFW projects were performed,
         the similarities within the fingerprints and the signatures question the validity as to
         whether cash was actually paid to individuals who performed the work under the CFW



                                              95
                                                                                 APPENDIX D
                       DEVELOPMENT ALTERNATIVES, INC.

                          Financial Audit of Costs Incurred under
                          Task Order No. 306-M-00-05-00515-00

                     Auditor’s Rebuttal to DAI Response to Findings

                                        (Continued)


      projects. The weak internal controls and the high instances of identical fingerprints
      and/or signatures raise substantial doubt as to whether the costs actually incurred for
      the CFW projects.

(4)   This finding does not address payments made to vendors nor does it address the
      translation of invoices to English. This finding only relates to the labor performed for
      the CFW program. As such, these payments were not made to vendors, but were
      made to day laborers in cash. However, we did identify various exceptions relating to
      the lack of adherence to DAI’s procurement policy that were not addressed by DAI.

(5)   We modified the condition of the finding to correctly reflect that the individuals who
      were paid by the CFW program did not have a home village identified. As such, it was
      not possible to verify that the funding provided benefit to the appropriate targeted area.

(6)   All reports relevant to this audit were requested at the beginning of the audit. However,
      DAI did not provide any reports from GAO, RIG, USAID or IRD for our review.
        a. The GAO report only identifies the progress of the CFW project and does not
            identify anything relating to the day laborers.
        b. The USAID and RIG reports were not subsequently provided to allow us to
            determine the usefulness of these reports.
        c. The IRD report is a programmatic report that reviews the progress of the CFW
            project and identifies deficiencies in the technicalities of the project, such as
            spacing of rebar or the need for a retaining wall. It does not review the controls
            in place or review the process of payment to the day laborers.

(7)   This finding does not address that the CFW program did not accomplish the projects
      tasked. This finding only questioned those costs related to the labor paid and does not
      question any materials purchased relating to the CFW program. However, based upon
      the testing performed, almost every CFW transaction tested had some duplicate
      fingerprints and/or signatures included within the supporting documentation. Based
      upon this rate of discrepancy, no reliance could be placed upon the system to ensure
      that the individuals that performed the work received payment.

(8)   Most of the internal controls provided by DAI in its response relate to the controls
      within the field office. This includes the review of the certified timesheets, the
      preparation of the advance cash payment and review of the advance. The risk
      associated with the CFW program relates to the physical payments to the day laborers
      and not the controls in the field office. Although the payments were made in a public
      arena, there are no controls in place to ensure that the individuals paid, if any, actually
      performed work and were paid the full amount to which they were entitled. Allowing
      acceptance of payments by the Shura or the laborer’s representative is not an
      acceptable control covering payments in cash.           In addition, there should be



                                             96
                                                                                    APPENDIX D
                          DEVELOPMENT ALTERNATIVES, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-05-00515-00

                        Auditor’s Rebuttal to DAI Response to Findings

                                           (Continued)


         documentation that the Shura or an allowable representative of the laborer was
         allowed to accept payment on behalf of the laborer. This was not the case based upon
         the supporting documentation reviewed.

   (9)   We reviewed the subsequent information provided by DAI in its response to the finding
         and noted that they do not address specifically the laborers whose timesheets do not
         match the days paid. We do not assert that all of the days paid are inaccurate.
         However, this was an exception found in multiple samples. DAI did not address the
         laborers whose paid days were incorrect. When performing fieldwork, DAI only
         verbally agreed that the timesheets were calculated incorrectly but did not address
         why timesheets did not tie to the days paid.

   (10) We reviewed the exceptions where it was identified that the Shura did not approve the
        timesheet and confirmed that there was no approval by the Shura in either a fingerprint
        or a signature.

   (11) Out of the 38 transactions reviewed, 18 did not have an Advance Request Form and/or
        an Advance Liquidation Form prepared. These forms are required by DAI’s policies.
        There is no evidence to identify that these costs were never billed to USAID. The lack
        of these forms being included within the supporting documentation demonstrates that
        DAI was not following its internal policy.

   (12) DAI did not provide all of the documents requested. The duplicate fingerprints and
        signatures do not support that the costs were incurred.


2013-2: Lack of Adherence to Procurement Procedures

In general, DAI disagreed with the finding as it believed that it did adhere to its procurement
procedures. However, our recommendation remains unchanged for the following reasons:

   (1)   While DAI disagreed with the finding on lack of adherence to procurement procedures,
         it did not explain why. Our testing noted a large number of exceptions where there
         were missing documents and/or specific procurement procedures not being followed.
         This clearly demonstrates that DAI did not consistently follow its procurement policies.

   (2)   If an individual is to receive payment instead of the vendor, then documentation should
         exist that the USAID Contracting Officer agreed to this alternate payment process. No
         documentation was provided to indicate payment was to be made to an individual.

   (3)   The agreement between the vendor and DAI requires three different certifications: (a)
         Certificate of inspection; (b) Certificate of Weight; and (3) Supplier’s Certificate of the



                                                97
                                                                                APPENDIX D
                         DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                        Auditor’s Rebuttal to DAI Response to Findings

                                         (Continued)


         product and of the bagging which states “The undersigned certifies that the products
         invoiced herein and their bagging conform to AID-approved specifications and to the
         specifications of the purchaser”. Our review of the supporting documentation and of
         the documentation subsequently provided by DAI in response to the findings does not
         contain the Suppliers Certificate with the required statement.

   (4)   The supporting documentation did include multiple forms required within DAI’s policies.
         However, within DAI’s policies is a flowchart showing the flow of documents beginning
         with the Purchase Order or invoice and ending with the payment. The conflicting dates
         of the invoices and other documents demonstrate that DAI did not follow its internal
         procurement procedures.

   (5)   DAI employs both Afghans and Expat labor within the field office. The Chief of Party
         (COP) is responsible for reviewing all procurements. No evidence was provided
         indicating that the COP is bilingual. In addition, the home office should perform a
         periodic review of the items requested for reimbursement from USAID. There was no
         evidence to indicate that home office employees are bilingual. Additionally, given the
         expenses are Federally funded, it is highly likely that third party review will be
         performed. As such, a translation of the invoices to English is important in order to
         eliminate costs being questioned.

   (6)   The review of the supporting documentation and the documentation subsequently
         provided by DAI in response to the findings does have timesheets attached to the
         subcontractor invoice. However, the timesheets for the subcontractor’s employees
         selected for testing include timesheets that are not within the billing period for the
         invoice (e.g., the timesheet is for the week ending February 23, 2007, but the billing
         period for the invoice starts on February 24, 2007 and ends on March 23, 2007.)

   (7)   The review of the invoice does not identify any documentation that would allow the unit
         cost to be discernible. This does not allow a sufficient review of the Goods Receipt
         Form when comparing to the invoice.

   (8)   Liquidation of an advance within 72 hours from when the advance was given is an
         internal policy set by DAI. The number of exceptions related to this issue
         demonstrates that DAI did not follow its internal procurement procedures.


2013-3: Inadequate Time Reporting Policy Resulting in Estimating Employee’s Days
Worked

DAI did not provide any proof of adjustments to the estimated time in the employee’s sample
tested during fieldwork. The example of adjustment provided only shows a leave request form



                                              98
                                                                                 APPENDIX D
                         DEVELOPMENT ALTERNATIVES, INC.

                            Financial Audit of Costs Incurred under
                            Task Order No. 306-M-00-05-00515-00

                        Auditor’s Rebuttal to DAI Response to Findings

                                          (Continued)


dated April 23, 2008, which is prior to the date when timesheets are due. However, there is no
documentation of a correction of time previously entered as regular time. As such, there is no
documentation demonstrating that this is a correction of time previously entered incorrectly. Our
recommendation remains unchanged.


2013-4: Lack of Adequate Monitoring of Subcontractor

In general, DAI disagreed with the finding as it believed it was not responsible for its
subcontractor’s invoices. However, our recommendation remains unchanged for the following
reasons:

   (1)   USAID provided funding to DAI through a Task Order. DAI is responsible for all costs
         incurred under this Task Order. DAI made the choice to enter into the Contractual
         Teaming Arrangement and should ensure that these costs are allowable and valid as
         with any other vendor or subcontractor.

   (2)   As described within the criteria section of this finding, 22 CFR 226 is part of the
         requirements listed within the Task Order under section A.21 “Applicable Clauses”.
         Therefore, all of its requirements are applicable to DAI and this Task Order.

   (3)   Section (d) of AIDAR 752.7003 states, in part: “…made available as part of the
         Contractor’s records which are required to be presented and made available by the
         clause of this contract entitled ‘Audit and Records – Negotiation’.” BearingPoint’s
         records were not made available to us for audit.


2013-5: Maintenance of Original Supporting Documentation

In general, DAI disagreed with the finding as it believed that documentation was retained as
required. However, our recommendation remains unchanged for the following reasons:

   (1)   22 CFR 226 is referenced within ADS Chapter 540, which is explicitly listed within A.27
         “Submission Requirements for Development Experience Documents” within the Task
         Order between DAI and USAID. This CFR reference is applicable.

   (2)   As stated within the criteria section of this finding, 22 CFR 226(c) states “Copies of
         original records may be substituted for the original records if authorized by USAID.”
         There was no documentation or communication provided that demonstrated USAID’s
         approval of substitution of original records.




                                               99
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
